<html>
<title> - DEPARTMENT OF DEFENSE FISCAL YEAR 2020 BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         DEPARTMENT OF DEFENSE
                        FISCAL YEAR 2020 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., MARCH 27, 2019

                               __________

                            Serial No. 116-7

                               __________

           Printed for the use of the Committee on the Budget

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
                            www.govinfo.gov
                            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-979                      WASHINGTON : 2020                    
          
--------------------------------------------------------------------------------------                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           CHIP ROY, Texas
JIMMY PANETTA, California            DANIEL MEUSER, Pennsylvania
JOSEPH D. MORELLE, New York          WILLIAM R. TIMMONS IV, South 
STEVEN HORSFORD, Nevada                  Carolina
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            KEVIN HERN, Oklahoma
BARBARA LEE, California              TIM BURCHETT, Tennessee
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Dan Keniry, Minority Staff Director
                                CONTENTS

                                                                   Page
Hearing held in Washington D.C., March 27, 2019..................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     3
    Hon. Barbara Lee, Member, Committee on the Budget............     4
        Prepared statement of....................................     6
    Hon. Steve Womack, Ranking Member, Committee on the Budget...     9
        Prepared statement of....................................    11
    Hon. David L. Norquist, Under Secretary of Defense 
      (Comptroller)/Chief Financial Officer and Performing the 
      Duties of Deputy Secretary, Department of Defense..........    13
        Prepared statement of....................................    15
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................    62
    Hon. Bill Flores, Member, Committee on the Budget, question 
      submitted for the record...................................    66
    Hon. Steven Horsford, Member, Committee on the Budget, 
      question submitted for the record..........................    67
    Hon. Chip Roy, Member, Committee on the Budget, questions 
      submitted for the record...................................    68
    Answers to questions submitted for the record................    70

 
                         DEPARTMENT OF DEFENSE
                        FISCAL YEAR 2020 BUDGET

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
Room 210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Moulton, Khanna, Doggett, 
Kildee, Panetta, Morelle, Horsford, Scott, Lee of California, 
Jayapal, Omar, Peters, Cooper; Womack, Woodall, Johnson, 
Flores, Stewart, Roy, Meuser, Timmons, Crenshaw, Hern, and 
Burchett.
    Chairman Yarmuth. The Committee will come to order. Welcome 
to everyone here. Our hearing today is a review of the 
President's 2020 budget request for the Department of Defense, 
and our witness is the Honorable David Norquist. So I yield 
myself five minutes for my opening statement.
    Welcome to Under Secretary of Defense Comptroller David 
Norquist, who is here to testify on the Department of Defense's 
2020 budget. I would like to recognize that you are also 
performing the duties of Deputy Secretary of Defense, and are 
here in that capacity, as well.
    It has been almost five years since DoD has appeared before 
this Committee, so this hearing is long past due.
    We all agree that we need a military that is second to 
none. But securing our nation requires a comprehensive 
strategy, which includes non-defense activities. We must begin 
by raising budget caps as soon as possible.
    Unfortunately, the President ignores this immediate need 
and instead uses a dishonest OCO gimmick to increase defense 
spending while cutting non-defense investments critical to our 
national and economic security. This jeopardizes homeland 
security, diplomacy, veterans' services, law enforcement, food 
safety, disease prevention and control, and other vital 
programs.
    The President's apparent unwillingness to reach a deal to 
increase budget caps sets the stage for more continuing 
resolutions or, worse, another shutdown. We have heard 
repeatedly from DoD about the harm to our troops and department 
operations caused by continuing resolutions.
    Under Secretary Norquist, I realize the tremendous 
responsibility shouldered by you and your Department. Securing 
the safety of the American people and maintaining the best 
interest of our troops is no easy job, especially when the 
Commander in Chief places his personal political objectives 
above our national security.
    I look forward to your testimony.
    [The prepared statement of Chairman Yarmuth follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Yarmuth. And I yield the remainder of my time to 
the gentlelady from California, Ms. Lee, for brief remarks.
    Ms. Lee. Thank you very much, Mr. Chairman, thank you for 
yielding, and good morning, and welcome.
    First of all, thank you for being here. And just for 
context, for 11 years I worked for my predecessor, our beloved, 
the late congressman, Ron Dellums, who also Chaired the Armed 
Services Committee. And so the Pentagon budget is an issue that 
I worked on for many years prior to coming to Congress, so I 
want to thank the Chairman for giving me a chance to do this 
opening statement.
    First of all, let me just say I believe that the Pentagon 
budget request of about--$750 billion? It is totally--it is 
bloated. Here we are yet again, pouring more blank checks into 
the Pentagon with little congressional oversight less than a 
year after the Department proved with a failed audit that it 
doesn't really know where its money is going.
    In lieu of that, and in the environment where, of course, 
top six defense CEOs took $100 million in profits in a single 
year, and the acting Defense Secretary is under investigation 
for industry ties, this budget request is driven, I believe, 
more by making rich men richer than getting--and also getting 
political applause lines, rather than military necessity.
    More money to the Pentagon doesn't buy more security. We 
need a combination of tools, including discipline, disbursement 
of Pentagon dollars using our soft power, like diplomacy, 
foreign assistance, a strong and fair economy, just application 
of the law, and we also need a strong military to ensure that 
our nation is safe.
    Moreover, this stepped-up trend of Pentagon increases 
defies public opinion, which does not favor Pentagon increases, 
preferring money to go to other priorities. There has only been 
one year--and that was in 1980--where the majority of Americans 
said that we spend too little on the military. Nowadays, poll 
after poll, a majority of Americans--this includes Republicans 
and Democrats--indicate they do not want Pentagon increases.
    A University of Maryland poll in 2018 found that Democrats 
and Republicans alike would make the most and the largest 
federal spending cuts to defense, and recognizing we still 
would maintain a strong national security.
    So I am sure you are aware that the annual Pentagon 
spending currently represents more than President Reagan was 
spending at the height of his Cold War build-up. It is 
currently more than seven countries in the world, including 
Russia and China, combined. This request is $20 billion over 
what the Administration first asked Congress to include in 
fiscal year 2020, and it is $35 billion above the $716 billion 
from fiscal year 2019, which the President himself called--and 
I quote--``crazy,'' as recently as December.
    In the fall the President told his cabinet, a member of 
this cabinet--and I quote--``Get rid of the fat, get rid of the 
waste,'' and he suggested a defense budget of $700 billion, 
which would have been a 2 percent cut over the previous fiscal 
year.
    And here we are again, with a budget request of $750 
billion, of which $165 billion of that is for an emergency war 
account within the Pentagon known as OCO.
    As the wars we are supposedly winding down, which are, 
quite frankly, many unauthorized, this OCO gimmick is an even 
more offensive vehicle used to circumvent the budget caps for 
defense, while at the same time slashing other important 
domestic priorities which lack a similar release valve.
    With approximately $1.8 trillion in appropriations into 
this account since 2001, Mr. Secretary, we know OCO has 
expanded beyond any reasonable measure of what a contingency 
fund should be, and it is really a black box with no oversight. 
In recent years we have paid nearly all wartime operations and, 
dismally, a significant proportion of expected base 
requirements out of a fund off the Pentagon's regular books, 
which was meant to be a small emergency fund. The Pentagon 
itself has admitted to using half of OCO to fund enduring 
requirements, the opposite of a contingency. As this 
demonstrates, the continued existence of OCO has resulted in 
less oversight, less certainty, and higher levels of waste.
    And really, if this Administration cared at all about smart 
budgeting and transparency, you would support the idea of 
moving OCO back to the base. I support eliminating it totally.
    [The prepared statement of Barbara Lee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Yarmuth. Gentlelady, my time has expired.
    Ms. Lee. Okay, thank you very much, Mr. Chairman, and I 
look forward to the questions when I return.
    Chairman Yarmuth. Thank you very much. I now yield to the 
Ranking Member, the gentleman from Arkansas.
    Mr. Womack. Thank you, Mr. Chairman, for the opportunity. 
And thank you, Mr. Secretary, for being here today.
    Today we are here to discuss the President's budget request 
for the Department of Defense. This is the agency tasked with 
keeping the American people safe and defending our values at 
home and around the world.
    As I have said before, ensuring the safety and security of 
our nation is the primary responsibility of the federal 
government. It is right there, in the preamble to the 
Constitution. And it is a responsibility we cannot afford to 
take lightly, especially at a time when our country faces a 
historically complex range of threats to national security.
    After several years of funding instability, this 
Administration is taking steps to restore the readiness of our 
military and provide our troops with the tools and training 
they have to have. With President Trump's support, Congress 
passed legislation providing $700 billion for DoD in fiscal 
year 2018, $716--that is $716 billion--in fiscal year 2019.
    As a result of these increases, the Department of Defense 
has been able to rebuild key areas that were neglected under 
the previous Administration, such as procuring new equipment 
and ensuring military readiness, both critical components of a 
strong defense against some of our biggest adversaries.
    The President continues that trend by requesting $750 
billion for the national defense budget, about a 5-percent 
increase from the 2019 enacted. According to the National 
Defense Strategy Commission, this top-line funding level is 
critical to maintaining the strength of our all-volunteer force 
and executing the necessary military strategy to keep our 
country safe.
    Conversely, my friends on the other side of the aisle 
continue to question these investments, expressing concern that 
there is too much money being directed toward the Department of 
Defense. If that is the case, what number would you recommend? 
Would you recommend freezing spending or cutting spending? And 
if so, by how much? Where is your plan?
    Let me be clear. The consequences of failing to fully fund 
our national defense going forward are deadly serious and far-
reaching. A decrease to the national defense budget could lead 
to fewer investments in new ships, aircrafts, and weapons that 
ensure our military can safely and effectively implement our 
national defense strategy. It could also lead to a reduction in 
training opportunities and lower retention rates. When these 
resources are reduced, we are essentially ceding ground to our 
strategic competitors, allowing countries like China or Russia 
to gain more access and control throughout the international 
community.
    The fact of the matter is we have a constitutional 
responsibility to ensure the safety and security of the 
American people. To fulfill our duty, we must provide our brave 
men and women in uniform with the support and resources they 
need to succeed. Today--or toward that end, I also believe it 
is important to ensure taxpayer dollars are well spent. I 
commend this Administration for completing the first full-
scope, department-wide, financial statement audit of the 
Department of Defense.
    Past administrations have made commitments to conduct this 
type of audit, but the Trump Administration is the first 
administration to fulfill that promise. This is an important 
step as we look to improve the efficiencies and effectiveness 
of this agency, and we look forward to future audits.
    I look forward to hearing more from you, Mr. Secretary, 
about how Congress can support these efforts.
    And with that, Mr. Chairman, I thank you again for the 
opportunity, and I yield back my time.
    [The prepared statement of Steve Womack follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Yarmuth. Thank you.
    And in the interest of time, if any other members have 
opening statements, you may submit those statements in writing 
for the record.
    Under Secretary Norquist, the Committee has received your 
written statement, and it will be made part of the formal 
hearing record. You will now have five minutes to deliver your 
oral remarks, and you may begin when you are ready.

 STATEMENT OF THE HONORABLE DAVID L. NORQUIST, UNDER SECRETARY 
OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER AND PERFORMING 
     THE DUTIES OF DEPUTY SECRETARY, DEPARTMENT OF DEFENSE

    Mr. Norquist. Thank you, Chairman Yarmuth, Ranking Member 
Womack, distinguished Members of the Committee. I appreciate 
the opportunity to testify in support of the President's fiscal 
year 2020 budget request for the Department of Defense. I would 
like to start by thanking the Members of this Committee for 
your support for the Department of Defense. I look forward to 
working with you to ensure the men and women of the Armed 
Forces have the resources they need to execute their mission.
    The fiscal year 2020 defense budget is a strategy-driven 
budget. As described by the National Defense Strategy, the 
erosion of our competitive edge against China and Russia 
continues to be DoD's central problem. And to preserve peace, 
we must be prepared for the high-end fight against near-peer 
competitors.
    While counter-terrorism will continue to be as a--continue 
as a core challenge in the future, conventional conflicts with 
other nations will likely be radically different from the short 
conventional wars we have fought since the collapse of the 
Soviet Union.
    The world as changed dramatically since then. After the 
first Gulf War the United States reduced defense investments, 
and we structured its military to fight violent extremist 
organizations, while China and Russia studied the capabilities 
that gave the United States overmatch in Desert Storm, and 
built militaries to counter them, dramatically reducing our 
advantage.
    In recent years China has fielded its first aircraft 
carrier, demonstrated the ability to shoot down satellites, 
continued to field short, medium, and long-range missiles, 
successfully tested hypersonic glide vehicles, and modernized 
and expanded its nuclear capabilities. As these developments 
indicate, wars of the future will be waged not just in the air, 
on land, and at sea, but also in space and cyberspace.
    For example, we must anticipate multi-dimensional attacks 
not just against our military forces, but on critical 
infrastructure at home. In order to deter these future 
conflicts, we need a military capable of winning them. The 
National Defense Strategy is our road map to get there.
    At the beginning of 2017 the Department had suffered from 
unstable budgets and devastating sequestration cuts that had 
eroded readiness and exacerbated our challenges. Over the past 
two years, this Administration, with Congress's support, has 
made investments to undo the damage, and we are already seeing 
significant benefits to readiness across military services.
    As we move forward we must work together to protect these 
gains, while building a military to meet the challenges of the 
future. The President's 2020 budget request, $750 billion for 
national security with $718 billion of that for the Department 
of Defense, executes the National Defense Strategy by 
increasing our investment in four areas.
    First, sustaining our forces and building on our readiness 
gains.
    Second, modernizing our capabilities in the air, maritime, 
and land domain, including $14 billion to modernize and 
recapitalize all 3 legs of our nuclear capability; and $13.6 
billion for missile defense modernization.
    Third, we are developing our emerging space and cyber war-
fighting domains, to include increasing our investments in 
space by 15 percent, and in cyber by 10 percent.
    And fourth, accelerating innovation and technologies such 
as artificial intelligence, hypersonics, autonomy, and directed 
energy.
    It is the largest RDT&E request in 70 years, the largest 
ship-building request in 20 years. It includes a 3.1 percent 
military pay raise, the largest in a decade. And it increases 
our total end strength by roughly 7,700 service members. All 
this with defense spending remaining near a record low of--as a 
percent of GDP, 3.1 percent, down from 4.5 percent in 2010, and 
at 15 percent of the federal budget, down from 21 percent in 
2007.
    The stakes are clear: If we want peace, our adversaries 
need to know there is no path to victory through fighting us. 
Military superiority is not a birthright. Each generation must 
actively sustain it.
    I appreciate your support, and I look forward to answering 
your questions. Thank you.
    [The prepared statement of David L. Norquist follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Yarmuth. I thank you for the opening statement. We 
now will begin the question-and-answer session of the hearing. 
And the Ranking Member and I will defer our questions until 
last.
    I now recognize the gentleman from Texas, Mr. Doggett, for 
five minutes.
    Mr. Doggett. Thank you, Mr. Chairman.
    And thank you so much for your testimony and your service. 
I represent San Antonio, which is well known as Military City, 
USA. Among the many institutions in San Antonio that are 
important to our security and to the community is Brooke Army 
Medical Center, along with Wilford Hall, but Brooke Army being 
the place where we have the largest Army-Air Force medical 
center in the country, and the source of training for personnel 
throughout the military.
    I forwarded you in advance of the hearing some concerns 
that I am hearing about the future of military medical 
personnel there. As you know, the Pentagon was required by the 
National Defense Authorization Act of 2017 to determine the 
size and composition of our military medical force. And that 
deadline was not met. I believe you were supposed to have 
something to us last month that we have not received.
    Can you tell me when we will have a formal report and what 
the impact, or what the plan is concerning active-duty medical 
personnel?
    Mr. Norquist. Sure. So as you point out, at the beginning, 
that--the National Defense Authorization Act directed the 
Department to look at the medical forces. And there is two 
issues here, because the goal of this one is improving the care 
of the members of the military and their families, and 
improving the readiness of those medics who have a military 
function.
    So what we, the Congress, looked at and noticed was we have 
a war-fighting mission and we have medical training that 
individuals are required to have, and we have a care or 
treatment that--the people performing one are not necessarily 
learning the skills they need for the war-fighting.
    So what we have done in the study is, at the Congress's 
direction, is looked at what are those types of procedures, 
what is the training that is best done by somebody in the 
military to meet their military requirement, and what could 
otherwise be done by civilian doctors who, with the higher 
repetitions, would be able to provide equal or better care?
    So what the services have put forward is a recommendation 
about the numbers to be realigned. It would occur gradually. 
Positions would move as people attrited out, and replacements 
were put in. I don't, off the top of my head, know whether the 
report has been submitted yet or not. I will find that for you 
and get that for the--I am being told we sent it on 22 March, 
but I will make sure, sir, you get a copy.
    Mr. Doggett. Okay. So within the last week.
    Mr. Norquist. Correct.
    Mr. Doggett. And I would like to get a copy. Do you 
envision in--through that report and that study, that there 
will be a reduction in active-duty military medical personnel?
    Mr. Norquist. There will be not--there will be a reduction 
in the medical personnel, but not a reduction in the total 
force. The services would be able to realign those into others, 
but those positions coming down, they will potentially 
doctors----
    Mr. Doggett. Will they be replaced by civilian doctors?
    Mr. Norquist. In general, yes. We want to make sure we 
maintain the same level of care.
    Mr. Doggett. I am changing subjects to the very important 
matter of readiness that you focused on.
    As you are well aware, $1 billion was diverted to an 
imaginary crisis, contrary to the determination of both the 
House and Senate and without their approval. That $1 billion 
could have been used for readiness, couldn't it?
    Mr. Norquist. That $1 billion was appropriated for a 
military personnel account.
    Mr. Doggett. Yes, sir.
    Mr. Norquist. And we have had a challenge in recruiting, 
which meant that we hadn't----
    Mr. Doggett. Yes, but that--you could have sought 
congressional approval to use that $1 billion for readiness, 
could you not?
    Mr. Norquist. I--we could.
    Mr. Doggett. Yes.
    Mr. Norquist. We have been looking at--yes.
    Mr. Doggett. And one of the other concerns I have--that you 
are familiar with as well--is the recent comments of the Marine 
commandant that one of the reasons we have a readiness problem 
is that he has been forced to cancel or reduce planned military 
training in at least five countries, and delay urgent repairs 
at bases because his--of the diversion to the border.
    He also says that the hurricane season, with it being only 
three months away, that we are short a significant amount of 
money for recovery operations. Again, that $1 billion could 
have been put aside for use in anticipation of hurricanes, 
couldn't it?
    Mr. Norquist. So we talked to the general. We always 
appreciate and want to understand the challenges they face. His 
concern was not actually the cost of deployments on the border. 
The cost for the Marine Corps for that is quite low. His 
concern was the hurricane damage and the issue of whether or 
not Congress would approve the----
    Mr. Doggett. It is correct that he says that he was forced 
to cancel planned military training in five other countries and 
repairs on bases.
    And seeing my time expire, I would also like to know when 
we will know which specific projects in San Antonio and across 
the country are targeted to take the money that Congress 
appropriated for them for things like a tower, aircraft tower 
in San Antonio, to be used for this fake wall crisis.
    Mr. Norquist. So on the second question, which is 2808, 
when we have identified what the requirements are, and the 
sources, we will be happy to provide that.
    Mr. Doggett. Well, when will that be?
    Mr. Norquist. Right now we have received the request from 
the--information from the Department of Homeland Security. The 
Joint Staff and others are looking at it to determine if those 
projects meet the legal requirements. I expect we will hear 
back from them in April, so it would be after that point.
    Mr. Doggett. Sometime in April, you would expect, or----
    Mr. Norquist. I expect to hear back from the Joint Staff in 
April. I don't know at what point we will make a determination 
on the total amount of funding and, therefore, what the--
sources would be required.
    Mr. Doggett. By total amount of funding, you don't know how 
much more money the President will ask for the wall? Is that 
what you are asking? Is that what you are----
    Mr. Norquist. Well, he has talked about using up to $3.6 
billion in military construction. But that determination is 
with the Secretary of Defense. And it depends on our review of 
the requirements and what it meets.
    So whether we do that amount, or some other amount, or we 
do it in increments is not something I know the answer to yet.
    Mr. Doggett. My time is up. But your--you say it will be 
after April. Can you give us any more precise date? Because 
we've----
    Mr. Norquist. I don't have----
    Mr. Doggett.----been asking for this for months.
    Mr. Norquist. So we provided the list of the unobligated. 
That is the pool from which it is drawn from. But we won't know 
the other until we hear back and get the feedback on the 
initial list, recommendation of uses of the funds.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Ohio, Mr. Johnson, for five 
minutes.
    Mr. Johnson. Mr. Chairman, I appreciate the time. I am 
looking forward to hearing what our panelist has to say today. 
It is extremely important that we look at the DoD budget and 
determine the best way to support our troops.
    I have been a--you know, as a 27-year veteran myself, I 
very, very strongly support strengthening our military. The 
world is a dangerous place. And without the resources that our 
troops need, Americans are not safe, the world is not a safer 
place.
    So I am not going to use all of my time. I am going to 
yield back, but I just want to say thanks for being here, and I 
look forward to discussing the details that you are going to 
share with us today.
    Mr. Norquist. Thank you, Congressman.
    Chairman Yarmuth. I thank the gentleman. I now recognize 
the gentleman from New York, Mr. Morelle, for five minutes.
    Mr. Morelle. Yes. Thank you, Mr. Chair. And thank you, Mr. 
Under Secretary. I am new here; I am not sure what the title 
is. Do I call you Mr. Under Secretary, Mr. Secretary?
    Mr. Norquist. Comptroller, too. Whatever you like, 
Congressman.
    Mr. Morelle. Very good, sir. Thank you. Thanks for being 
here.
    I wanted to talk about a couple things. First, related to 
recruitment, readiness, and workforce development, I understand 
that nearly 350 retired admirals and generals recently 
submitted a letter to Congress expressing their concern over 
deep cuts to non-defense discretionary programs, and they note 
that the armed services are facing a recruitment crisis, as 
they described it.
    According to the letter from Mission Readiness, several 
branches missed their recruiting goals last year, 2018, by 
31,000 potential soldiers. And these national security experts, 
volunteering their time, are greatly concerned about the 
erosion of our military strength due to a shortage of qualified 
young people, noting that 71 percent of young Americans cannot 
qualify for military service because they are too poorly 
educated, medically or physically unfit, or have a 
disqualifying record of crime or drug abuse.
    Do you disagree with the assessment of these retired 
admirals and generals who argue that cuts to NDD programs, 
including child care and development block grants--Head Start, 
which I note the President decreased in his budget from 891,000 
to 871,000 slots--and Early Head Start undermine our national 
security with regard to the development of future recruits?
    Mr. Norquist. I can't speak to the connection to the 
domestic programs, but I do understand and agree with the 30 
percent of individuals qualified, and the challenges that 
creates to our recruiting and retention.
    Mr. Morelle. Well, and I would just make the argument that 
continued investment in these programs--Head Start, early 
childhood development programs--do actually help us as it 
relates to making certain that our future workforce and future 
war-fighters are well trained, and that we can do recruitment.
    One other thing I wanted to just touch on briefly in my 
remaining couple of minutes. Education and workforce 
development has been very important to the Department of 
Defense. And my district, which is Rochester, New York, has a 
long history of technology-based industries: Eastman Kodak, 
Bausch and Lomb, Xerox, Harris, just to name a few.
    Because of our history with these companies, our region is 
today a hub of technological advancement in optics imaging, 
photonics. These high-tech areas are educating and developing a 
workforce, including technicians, baccalaureate, masters, Ph.D. 
engineers, and scientists, which are, in my view, vitally 
important to continue U.S. leadership in high-tech areas and 
defense, which relies more and more on technology.
    As you work to develop emerging technologies to the benefit 
of our war-fighters, development of new educational curriculum, 
and efforts aimed at attraction of students to these fields, in 
my view it will be necessary. And from my conversations with 
researchers, I am persuaded that you cannot just take engineers 
or physicists and quickly transform them into quantum experts 
and those experts in an emerging and new field, which is going 
to be critical to DoD investments of the future.
    We have, for example, AIM Academy, which is the American 
Institute for Manufacturing--integrated photonics, photonic 
circuits, using optics which dramatically decreases weight of 
jet fighters and men and women on the ground in the infantry. 
And I just wonder whether or not you are continuing--you intend 
to continue to fund education workforce development initiatives 
such as--that exists in the DoD sponsored by--like AIM 
photonics and other initiatives.
    And if you could, just address that in the last minute or 
so.
    Mr. Norquist. Sure. Across the Department of Defense, we 
recognize the importance of the skill set with the new 
challenges we face, particularly the STEM type of technologies, 
cyber, and others. And we will continue to invest in ensuring 
our military and our workforce has that, and that we are able 
to draw those types of individuals into service.
    Mr. Morelle. And I do note that some of those countries 
which would be our adversaries are investing dramatically in 
artificial intelligence, machine learning, imaging, optics, 
photonics. And I would just encourage you to continue, to the 
greatest extent possible, to keep that in mind. The emerging 
field of quantum engineering and quantum particles, quantum 
physics, quantum computing is going to be critical to our 
success in defending the United States and our allies.
    Mr. Norquist. I agree.
    Mr. Morelle. Thank you, sir.
    Chairman Yarmuth. The gentleman's time is expired, and I 
now recognize the gentleman from Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for joining us today. I would like 
to drill into the allocation of the budget real quickly, if we 
could. I am looking at the 2020 lay-down of the budget, and I 
was wanting to compare it to fiscal year 2019, if we could.
    So for military personnel--let's start with that--you have 
$150.7 billion for fiscal year 2020. What was it for fiscal 
year 2019?
    Mr. Norquist. A--$150.7 is the 2019 number, Congressman; 
$155.8 is the 2020 request.
    Mr. Flores. Okay.
    Mr. Norquist. An increase of about 3.3 percent, which is 
adding $7,700 and adding the military pay raise.
    Mr. Flores. Okay. And then for O&M, what increase do you 
show there?
    Mr. Norquist. Sure. O&M goes from $278.8 billion to $292.7, 
an increase of about 5 percent.
    Mr. Flores. Okay, Procurement?
    Mr. Norquist. Procurement goes from $147.3 down to $143.1, 
so that drops about 2.8 percent.
    Mr. Flores. Okay. And then the one I am really passionate 
about, R&D.
    Mr. Norquist. So this is the main area of emphasis, given 
the types of challenges, so that goes from $95.3 billion in 
2019 to $104.3 billion, an increase of $9 billion or 9.4 
percent. That is an area of particular emphasis for the 
Department in this budget, given the range of challenges that 
we face in the future.
    Mr. Flores. Okay, great. You talked about recruiting. We 
know that in certain key areas, like pilots, we have shortages. 
As a pilot myself, I understand the long lead times to develop 
the personnel to be fully functioning in that area.
    What are the other critical recruiting shortages that we 
have today that have long lead times?
    Mr. Norquist. Sure. So the first one you have is 
maintainers. And while, originally, we had--I think the Air 
Force had a gap of 4,000 maintainers, they have now been able 
to hire to fill that. But there is a significant difference in 
the skill set of a first-year maintainer to somebody who has 
been working those engines and those parts for five or six 
years. So while we have addressed the numbers, the growth of 
the skill as those individuals get more experienced, that is 
one.
    Another area you are looking at is cyber and cyber 
security. That is as challenging environment with a very 
competitive marketplace. So I think those are two that I would 
highlight.
    You bring up pilots, as well. That is another.
    Mr. Flores. Okay, great. And then, one of the areas you 
talked about in your testimony was $14 billion for the nuclear 
triad. We have heard reports about deferred maintenance 
challenges with respect to our nuclear arsenal. Does the $14 
billion get us caught up? Or will we still have deferred 
maintenance challenges there that will take years to overcome? 
If so, how long do you think it takes?
    Mr. Norquist. So the $14 billion is predominantly focused 
on also the replacement of those systems. What we are doing is 
we have some very old systems, and our time is running out to 
bring in the next generation. They have served us well, they 
have served decades of administrations with the deterrence, 
which is one of our critical functions.
    But at a certain point the amount of maintenance we can do 
to keep them going is limited, and we need to shift to the next 
generation. And that is what you are seeing the investments for 
in this budget.
    Mr. Flores. Okay, so the $14 billion is for next-gen 
nuclear triad replacement----
    Mr. Norquist. Well, it includes both, and--but it involves 
heavily the next generation of technologies.
    Mr. Flores. Okay, very good. You know, like you, I feel it 
is pretty important for us to stay ahead on the technology 
curve, to invest in 5G, artificial intelligence, autonomy, 
robotics, and so forth. And also, in telecommunications 
networks.
    In that area, in last year's NDAA, we had provisions to ban 
the use of ZTE and Huawei equipment. I assume that those bans 
are embedded in this budget. Is that correct?
    Mr. Norquist. That policy would continue.
    Mr. Flores. Okay. Are there any other policies in your 
budget that help us to secure our telecommunications for 
defense purposes?
    Mr. Norquist. So we have a number of investments on the 
defense side, and the parts of the telecommunication network 
that we control. I don't know that we have ones that extend 
into the commercial side, though I know we do cooperative work 
with them. But let me take that for the record, and see what we 
have.
    Mr. Flores. Okay, that would be great. And then lastly--and 
this is my most important question for today, and that is how 
will the Department be affected if we don't have a caps deal, 
and if you suddenly wind up with a sequestration cut of $70 
billion-plus?
    Mr. Norquist. So sequestration would be devastating to the 
Department of Defense. I think if you worked through the steps 
that would have to happen, the first is you end up with a 
challenge in filling vacancies. You start to have hollow units, 
people being asked to do more because there aren't the soldier 
or the sailor next to them to do their part. You start 
canceling readiness exercises if you go down--you know, when 
you are talking about that scale of reduction. Those aren't 
small things you can work around; those are--$71 million is 
enormously disruptive.
    Think about it. We bring in 270,000 military people a year. 
And so the amount of training needed to keep that next 
generation ready is significant.
    You also will affect acquisition of new systems, the 
technologies needed to keep pace. And, of course, one of the 
things that is almost always the first one to go is the new 
technologies, and the research that we think is essential to 
keeping pace with the threat of the next decades.
    Mr. Flores. Thank you for joining us today, thank you for 
your answers, and I appreciate your service to our Defense 
Department.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Virginia, Mr. Scott, for five 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Norquist, I have a question about the Truman aircraft 
carrier. The Pentagon proposal to cancel the mid-life refueling 
and complex overhaul of the Truman and retire her early would 
be detrimental to the Navy's ability to strategically deploy 
carriers in times of crisis. It would also bring our fleet down 
to 10 carriers, which violates federal law saying that the Navy 
shall include not less than 11 operational aircraft carriers.
    Numerous reports from defense industry leaders and members 
of both sides of the aisle vehemently disagree with this 
proposal. If the Truman were to be retired early, it would be--
it would have served less than about half of its full 
operational life, and that would be--and have a detrimental 
impact on the shipyard--on the shipbuilding industrial base.
    Can you tell me what analysis the DoD did on the negative 
impacts to the strategic dispersal of the fleet, as well as the 
impact on the shipbuilding industrial base if this decision 
were to be implemented, and what other alternatives the Navy 
considered for savings without retiring the Truman, and what 
the cost of decommissioning and Nimitz-class aircraft carrier 
early would be, and what cost assumed to be assessed to this 
RCOH will have to now be assumed by other projects?
    Mr. Norquist. I appreciate the question, Congressman. This 
is an important issue. When we started, we--first question we 
were looking at is whether to do a two-carrier buy, and there 
was some concern about the additional cost that would put into 
the budget, because of the acceleration of the second carrier. 
And the question became, in part, would you be better to do the 
refueling and wait on the second carrier, or getting the extra 
capabilities of a new, modern carrier be the right tradeoff?
    One of the things that drove us towards that decision is 
both the savings from the two-carrier buy, the ability of us to 
make sure that, with the additional investments that we are 
making in shipbuilding, that we could address the workforce 
labor requirements.
    The other part is that, as we go through the next few 
years, there is only, I think, $17 million in this budget that 
is actually related to the refueling. So that is a decision 
that we bring to Congress now that doesn't take immediate 
effect. And that allows us to--and I would encourage to have a 
discussion between our folks to do this analysis with you at a 
slightly more classified----
    Mr. Scott. Okay. You recognize that the cost of the 
decommissioning early and the transfer of cost from this 
project to other projects would pretty well diminish any 
savings that you could have achieved?
    Mr. Norquist. We estimate that is about $3.4 billion for 
the decommissioning in savings, and $1 billion a year 
thereafter, because of the full operating cost. And there is a 
tradeoff in the other capabilities that you can buy for that. 
That is part of what the analysis looked at.
    Mr. Scott. Let me ask two questions in the time I have 
remaining.
    Holding MILCON projects hostage for the wall, we have a 
project in--that was awarded in fiscal year 2018 at Joint Base 
Langley, an aviation training facility. I think Mr. Doggett 
asked about this. There are a lot of projects being held up on 
reprogramming. And is it my understanding that the previous 
process was that the reprogramming request would be submitted 
to Senate and House Armed Services Committee for approval, and 
these reprogramming requests are just going to be done without 
approval? Is that right?
    Mr. Norquist. Okay, so there are two subjects. Let me split 
them out. The military----
    Mr. Scott. Well, let me ask another question, because my 
time is going to run out, so--get them all in.
    A 2017 GAO study reported--and I quote--``GAO's analysis of 
Navy shipyard facilities data found that their overall physical 
condition remains poor. Navy data show that the cost of the 
backlog to restoration and maintenance projects at shipyards 
has grown by 41 percent over five years, to a Navy-estimated 
$4.86 billion, and it will take 19 years to clear. Similarly, a 
Navy analysis shows that the average age of shipyard capital 
equipment exceeds--now exceeds expected useful life, partly as 
a result of these poor conditions. Shipyards have not been able 
to meet the Navy's operational needs.''
    As we are moving towards the 355 Navy fleet to ensure the 
safety and security of our American people and their sailors, 
what in the budget would allow--the question is what would 
allow the Navy to sufficiently address this backlog on 
restoration and maintenance at our public shipyards?
    Mr. Norquist. Okay, so let me walk through the three 
questions that you asked. I will start with the last one, to 
make sure I don't miss it, and go back to the first.
    In the budget we have an increase in what is called FSRM, 
facilities sustainment, repair, and maintenance. Those are the 
types of funds that we would use to protect the workyard and 
the shipyards, and keep them up to date. Those are the funds 
that we have been increasing each year, particularly this year, 
across the board because we share those concerns.
    With regard to border construction, there is two 
authorities that are being considered for that. One is 284, 
that is the reprogramming you mentioned, where the answer is 
that is the money going from the unused MILPERS account. And 
that is the reprogramming that went up earlier this week.
    You are correct, normally those have traditionally been 
prior approvals, where the committees would send us letters. 
The law requires only a notification. So that went up as a 
notification. That doesn't affect military construction.
    The military construction authority is called 2808, and 
that is one where what the Department has done is identified 
the pool of projects that have not yet been awarded. But to 
take, for example, the item you mentioned, any project 
scheduled to be awarded before 30 September of this year, 
before this fiscal year ends, there is no delay. We are 
scheduled to go ahead with those. The intent is to award those 
contracts.
    The ones potentially affected would be those who don't 
begin until after 1 October. But in those cases we have asked 
for money in the budget for military construction, so that, 
should the budget be enacted on time, those items would not be 
disrupted, either. Our goal is not to cancel any of these 
projects; our intent is to prevent any delay or disruption to 
readiness.
    Mr. Scott. Mr. Chairman, thank you----
    Chairman Yarmuth. The gentleman's time expired a long time 
ago.
    [Laughter.]
    Chairman Yarmuth. But very valuable information was 
gleaned. So I now recognize the gentleman from Utah, Mr. 
Stewart, for five minutes.
    Mr. Stewart. Thank you, Mr. Chairman. And I will try not to 
have you say my time is expired. I will go quickly.
    Deputy Secretary, thank you for being here. Thanks for your 
service. You see I have here my Air Force wings. Actually, that 
is not true, these are my father's Air Force wings. He was a 
pilot in World War II. He had six sons. Five of us served in 
the military. There is members of my family who are deployed 
today, some of them for the second and third and fourth times. 
We appreciate what you are trying to do to protect and to train 
and equip our war-fighters.
    I got to comment on a couple things that other members have 
said very quickly.
    First, Ranking Member Womack, he talked about the primary 
responsibility of the federal government. And this is important 
to state before we get to my questions, because it kind of sets 
the table. This is just fundamentally true. It is the 
fundamental responsibility of the federal government to protect 
our national security. It is--they are the only organization 
that can do that. And you are engaged in a great work.
    I talk about American exceptionalism all the time. In fact, 
I am kind of warned not to do that. And when I do that, I am 
not saying we are better than another country, I am saying that 
we have a unique responsibility to lead. And if we don't lead, 
then Vladimir Putin will, or President Xi will. And they will 
lead the country in a very, very different place. And from 
refugees to nuclear power, we have a truly global 
responsibility. And we appreciate what you are doing with that.
    Now, to--Mr. Flores has made a comment about Huawei, ZTE. 
And I would ask--add Kaspersky Lab to that. I am not going to 
ask a question, I am just going to encourage you please, please 
be careful in that. I mean talk about shooting yourself in the 
foot. You are not shooting ourselves in the foot, we are 
shooting ourselves in the chest if we are not--if we don't make 
very obvious correct decisions on those things.
    Now, I want to hit a local and then a global issue. I have 
this unique claim that I am the only Member of Congress who has 
ever actually bombed their own district, because I was a B-1 
bomber pilot, and the Utah test and training range is in my 
district. So I have dropped bombs there many times.
    [Laughter.]
    Mr. Norquist. I appreciate the clarification, Congressman.
    Mr. Stewart. I saw the look on your face, and I thought I 
should clarify this.
    [Laughter.]
    Mr. Stewart. And UTTR--we called it the UTTR, Utah Test and 
Training Range--truly is unique. It is the only facility like 
it, even in the world, and certainly in the United States.
    But with new fifth-gen weapons coming out, with hypersonic 
missiles and much of the technology that is developing and is 
critical to our--that fundamental responsibility, the training 
ranges have to stay up with that. And we need your assurance 
that we are going to spend money--I am talking for defensive 
emitters, the S300, the S400s, again, that we expand in space.
    I have worked very hard over the last three or four years 
to expand the airspace that would allow us to take advantage of 
the UTTR. Tell me, can you assure us that we are going to spend 
the money and make the commitment to make that training range 
what is necessary for these new weapons systems?
    Mr. Norquist. So I can't speak to the individual range, but 
I know the essential value of all of the ranges, the ability to 
be able to replicate realistic conditions for our pilots, to be 
able to get the type of training they need is essential to our 
competitive edge, and we are committed to making sure that we 
can produce that type of realistic training environment for the 
pilots.
    Mr. Stewart. Well, let me say this. If you have a fifth-gen 
weapon, and you can't train that, then you may as well not have 
the weapons system. You have to be able to train the pilots in 
how to deploy that weapons system. And these ranges are 
critical to doing that.
    And, as I said, they are--the only--we could go to 
Australia, there is one in Australia that kind of is like the 
UTTR, but there is nothing else in the CONUS that is. So please 
commit to us that we will spend the money to make that 
effective training that is necessary there.
    Second issue is more global, and that is, you know, I have 
to laugh sometimes when people accuse this President of 
favoring Russia. I just think it is absurd, on its face, as--
what his policies and actions have been. And a great example of 
that is going to NATO and challenging them to do what they 
promised that they would do in the Wales Summit, which was to 
spend 2 percent of their GDP on defense.
    Now, when you look at the list of those who have done it, I 
am grateful for them. But then, when you look at a list of 
those who haven't--UK, Germany, France, others--the largest 
economies in Europe, and address that, if you would, in the 
minute that we have left, the importance of our NATO allies 
aligning themselves and doing what we are doing, and not 
spending what is necessary to defend our own national 
interests.
    Mr. Norquist. We are fully committed to supporting NATO. 
The President has expressed his support to Article V. But this 
is also an alliance, and everyone in the alliance needs to 
participate and carry the burden of collective defense. And so 
he has been very clear, as has the Secretary and others, upon 
working with our allies to make sure they increase that.
    So we have seen, so far, a $41 billion increase in the last 
two years, which is the largest in 25 years, in terms of their 
contribution. We expect to see that continued progress as we go 
forward.
    But this is part of what collective defense is, is 
collective security, is each of us bringing the right resources 
so that we are not carrying the majority of the burden, a 
misappropriate amount of the burden for the team.
    Mr. Stewart. Well, and again, my time has expired. 
Chairman, I appreciate that.
    Thank you for those efforts. Please continue to encourage 
NATO. Again, they need to be as serious about their own defense 
as we are about helping in that alliance. And I yield back.
    Chairman Yarmuth. The gentleman's time is expired. I now 
recognize the gentlelady from Minnesota, Ms. Omar, for five 
minutes.
    Ms. Omar. Thank you, Chair. No one really disputes that our 
military being smart and strong is an essential part of 
protecting our country. But I tend to agree with the President 
when he says get rid of the fat and get rid of the waste.
    And so I wanted to ask you how many audits has the 
Department of Defense passed?
    Mr. Norquist. So let me break it into two parts. We have 
what we call performance audits that occur on a regular basis. 
Those look at individual programs. Where I think you are 
referring to is the full, wide Department financial statement 
audit. In that case, we have had only one. There are five 
organizations within the Department of Defense who got a clean 
opinion. The Department as a whole did not.
    Ms. Omar. No, I appreciate that.
    Mr. Norquist. Yes.
    Ms. Omar. So you had one audit.
    Mr. Norquist. One full financial statement audit. Correct, 
Congresswoman.
    Ms. Omar. And how many did it pass?
    Mr. Norquist. Five of the organizations passed, but the 
Department, as a whole, did not.
    Ms. Omar. Okay. And the acting Defense Secretary Shanahan 
said that he expected for the Department to fail.
    Mr. Norquist. That is correct.
    Ms. Omar. Do you know why?
    Mr. Norquist. Because when you do an audit for the first 
time--and let me just step back. So one of the challenges that 
I think this Congress and others were frustrated with is the 
Department had previously taken the position to wait on 
starting the audit to look at fixed things. I came from 
defense, but I spent some time at Homeland Security, where I 
was their CFO. And they could not pass an audit. But we started 
with the audit there, and we used the auditor's findings to 
drive change.
    So they have now had four more clean opinions in a row. So 
that is the approach we are taking at defense, which is instead 
of holding off the auditor, bring them in, take the findings, 
let's identify what is wrong. Our view is ignorance is not a 
good strategy. That is the best way.
    Ms. Omar. Okay. I appreciate that. So one audit and one 
failed audit.
    Mr. Norquist. Correct.
    Ms. Omar. In most departments we usually are making a cut 
if that were to happen. So I just wanted to say that.
    Earlier my colleague from California referenced the OCO. 
And I have a quote here: ``The OCO is perhaps the worst way to 
fund the military. It lacks oversight, accountability.'' Is 
that a statement that you would agree with?
    Mr. Norquist. So there--let me split it into two parts. The 
way we have the OCO funding provided by Congress, appropriated 
and authorized, is at the line level, similar to the rest of 
it. It comes with the colors of money and very similar sets of 
controls. It is a presentation issue, in terms of once we 
generate the requirement, what do we show in base and what do 
we show as OCO. And that is usually tied up into the overall 
budget debate.
    Ms. Omar. Yes.
    Mr. Norquist. And that is where it creates a--generally, an 
issue.
    Ms. Omar. Right. And so you--do--you do agree with that 
statement?
    Mr. Norquist. I agree that it creates a challenge.
    Ms. Omar. Okay. Wonderful. That was a statement from the 
current Acting Chief of Staff.
    Mr. Norquist. I always tend to agree with the Acting Chief 
of Staff.
    Ms. Omar. So earlier, one of my colleagues on the other 
side of the aisle talked about American exceptionalism, and I 
think American exceptionalism is--as someone who came here as a 
refugee and learned about American exceptionalism, is a little 
bit more than our military. American exceptionalism is about 
the American Dream; it is about guaranteeing prosperity for 
all. And in order for us to have that full American 
exceptionalism that we export to the outside world be fully 
realized in this country, we have to make sure that we have 
budgets that are fully reflective of our full priorities.
    Americans who are struggling every day to afford groceries 
and medical coverage deserve to have that prosperity. Americans 
who can't get an education without saddling themselves with 
debt deserve to have that American exceptionalism. Americans 
who have to worry every month whether they will be able to make 
rent are looking for that.
    And this, this budget, the overall budget that the 
President put forth, decreases every single program that 
guarantees that prosperity for Americans. And that includes 
cuts to SNAP, which gives 23,000 of our military families the 
ability to feed their families. It is--41 percent of members of 
the military are carrying student debt, and so they are 
shackled with debt. And in recent years one-fifth of households 
that are using the assistance to heat or cool their homes are 
military veterans.
    And so, when we are talking about American exceptionalism, 
it isn't only to protect, but it is also to guarantee 
prosperity for everyone, especially those that are risking 
their lives and enlisting to make sure that we all sleep safe 
at night.
    Thank you so much, and I yield back.
    Mr. Norquist. Thank you, Congresswoman.
    Mr. Moulton. [Presiding] Thank you.
    And the gentlelady's time is expired. I now recognize Mr. 
Meuser from Pennsylvania.
    Mr. Meuser. Thank you, Mr. Chairman. Thank you, Deputy 
Secretary Norquist, for being here with us this morning.
    I would like to begin by thanking the President and the 
Defense Department for their budget proposal. I represent a 
district that includes Fort Indiantown Gap, which serves as the 
headquarters of the Pennsylvania National Guard, and the 
training facility for the 28th Infantry Division. Our district 
and surrounding areas also include several top-notch DoD supply 
companies, such as Medico Industries among them, as well as PRL 
of--Incorporated, of Cornwall, Pennsylvania, which I visited 
and toured last week. Understandably, my constituency strongly 
supports the men and women who serve in uniform. So I am 
pleased to see a budget request that adequately supports our 
military.
    My questions start with there are concerns about the issue 
of cyber security. What does your budget request include to 
strengthen the United States Cyber Command? And, as a follow-
up, how do we compare with other nations on this front?
    Mr. Norquist. So I think, to start with, there is a 10 
percent increase in our budget for cyber, writ large. We put a 
lot of support in for Cyber Command. We have set up training 
areas. So one of the things you have to imagine is, for the 
infantry, you have a marksmanship range. But if you are trying 
to train people to do cyber, what is the type of training 
environment they need to be able to practice and develop their 
skills on both offense and defense? And so, making sure we are 
protecting and supporting both of those assets, this is a 
critical area.
    I think you asked about where other countries are. In many 
of them, they see this as a way around a direct conflict, ways 
to be able to go fight in what they call the gray zone, and 
engage in conflict with the U.S. short of a military shooting. 
But the destruction and the devastation that can be caused by 
cyber is quite real. So this is a very high priority for us.
    Mr. Meuser. I am aware and understand, as a matter of fact, 
that the Defense Department suffered during the Obama 
Administration, particularly in the area of cyber security, due 
to the lack of proper funding. Is this budget sufficient to 
guarantee that the U.S. military remains the most dominant on 
the planet?
    Mr. Norquist. We are committed to remaining the strongest 
military. We are committed, and we believe that this budget 
does that.
    Mr. Meuser. Thank you. The budget also requests the 
creation of the U.S. space force. It is also my understanding 
that space defense investments by the DoD is absolutely crucial 
to securing our status as a world power. Can you provide some 
information, describe what the mission and focus of this new 
military branch will be?
    Mr. Norquist. Sure. So if you think about when we first 
came out of World War II, and you had the Army and the Navy and 
the question of standing up an Air Force, air had become a 
domain not just for reconnaissance, but for combat, and 
directly affected operations on the ground.
    That is the case for space today. It has moved from being 
where there is occasional satellites, and looking to being a 
potential war-fighting demand, so the need to have a SPACECOM 
who thinks of it in that term, to have a space force that is 
focused on what is the training and doctrine we need to be able 
to operate in this domain, not as something adjunct to what we 
do on the ground, but as an essential part of our nation's 
security.
    And when you think about how much of our economy is 
dependent on space for its communications, its business, its 
banking, its activities, it is really not just the military 
function we are worried about, it is the total effect on the 
United States. So being able to expand and protect that, and 
organizing around it so that we think about it and fight about 
it the correct way, and defend it properly.
    Mr. Meuser. Okay. Do you believe that the funding in this 
budget will achieve the mission at hand?
    Mr. Norquist. It does. It puts us on a path. Some of these, 
like cyber, there is a multi-year investment over our program, 
and that just reflects the fact that you can't do these things 
overnight. But I think it puts us on the right path to do 
exactly what you are discussing.
    Mr. Meuser. All right. Well, thank you.
    Mr. Chairman, I yield back my time.
    Mr. Moulton. I thank the gentleman. And I would like to 
recognize myself for five minutes, as I am next on the list.
    And I would actually like to continue the same line of 
questioning Mr. Meuser has gone down.
    Mr. Norquist, I am a strong proponent of investing in next-
generation defense capabilities, and so I am very pleased to 
see the increases in this budget, things like cyber, artificial 
intelligence, or AI, hypersonics. But I just want to be clear 
about the numbers.
    The Administration has proposed slashing the overall 
federal R&D budget for non-defense by $6.5 billion, with this 
explanation in the budget materials: ``While recognizing the 
continued importance of R&D spending to support innovation, 
fiscal prudence demands a more focused approach to the federal 
R&D budget in the next--in the context of America's multi-
sector R&D enterprise.''
    In return, the defense budget proposal only increases R&D 
investment from $55.8 to $59.5 billion. That is an increase of 
only $3.7 billion. So the overall cut in R&D for the United 
States is $6.5 billion. How do we--how do you explain that 
delta, and how do we get to where we need to be with our near-
peer adversaries?
    Mr. Norquist. So I can't talk to the civilian side of this. 
I think on the defense side we continue to protect basic 
science and technology research as sort of the ground seed for 
the future technologies that we need, and we think that is an 
essential part of our national defense.
    Mr. Moulton. Okay, so how much do you--how much has China 
committed to artificial intelligence, the artificial 
intelligence industry in China, by 2030?
    Mr. Norquist. So I don't have a number for what they are--
--
    Mr. Moulton. $150 billion.
    Mr. Norquist. Okay.
    Mr. Moulton. $150 billion. So the budget--the President's 
budget, which includes a total of about $1.8 billion between 
both DoD and DoE, that is barely 1 percent of China's 
commitment in the next 10 to 15 years. So how do we keep our 
technological edge with that level of investment?
    Mr. Norquist. So I think the--first of all is--one of the 
things is a one-year number. The other is 10 to 15.
    But it--what you are pointing out is the sheer size of the 
challenge we face, and the capability and interest China has in 
artificial intelligence, not just from a war-fighting, but from 
the way a nation designed like China has tried to maintain 
internal control, and our concern over the development of 
artificial intelligence is on the war side. But their expanded 
use of it reflects a broader set of concerns.
    We need to be able to keep pace with that. We need to make 
sure that, in a future conflict, our men and women in the 
military aren't at a disadvantage because of the types of 
systems they are facing.
    Mr. Moulton. Mr. Norquist, I couldn't agree with you more. 
We need to keep pace with that.
    Mr. Norquist. Absolutely.
    Mr. Moulton. We are not keeping pace with this number in 
our budget. Do you disagree?
    Mr. Norquist. I can't speak to the domestic side. On the 
defense side I think we are committed to this issue.
    Mr. Moulton. You are committed at less than 10 percent over 
10 years of what the Chinese are committed to.
    Mr. Norquist. Well, the number we request is a one-year 
number.
    Mr. Moulton. Let me--well, just multiply it by 10.
    Mr. Norquist. Okay.
    Mr. Moulton. It is still less than 10 percent.
    Mr. Norquist. I will have to see what we have in--but I 
understand the risk you are talking about.
    Mr. Moulton. I don't--that is a--I mean that just does not 
seem competitive to me, at all.
    Mr. Norquist. So this is important to us. We are going to 
continue to invest in it. What you see in our current year is a 
mix of what--we have to be careful about how much money we put 
in something based on what it can deliver.
    Mr. Moulton. Well, that----
    Mr. Norquist. To the extent we think----
    Mr. Moulton.----Mr. Norquist, I totally agree with. We have 
to be careful about putting--how much--you know, putting money 
into things that can't deliver.
    So how much money is the President's DoD request for the 
border wall construction?
    Mr. Norquist. So the program we set up yesterday was for $1 
billion. The President has talked about two numbers, $2.5 
billion in--through the counter-drug program, and up to $3.6 in 
2808. Those are the two numbers he used.
    Mr. Moulton. So if you take $3.6 billion for 2020 border 
wall construction, $3.6 billion to pay back 2019 emergency 
funding, and then $5 billion that he has requested under 
Department of Homeland Security, that is $12.2 billion for 
border wall construction in 2020.
    Now, the President's budget also requests $9.6 billion for 
cyber capabilities. Okay?
    So I agree with you, that the most significant national 
security threat to our country comes from our near-peer 
adversaries, Russia and China. How many times have Russia and 
China launched cyber-attacks on the United States in the last 
year?
    Mr. Norquist. I couldn't do that----
    Mr. Moulton. In the last 24 hours?
    Mr. Norquist. I couldn't do that in an unclassified format.
    Mr. Moulton. A lot. A lot. How many times does the DoD 
expect Russia or China to attack us through the southern 
border?
    Mr. Norquist. I don't think the concern on the southern 
border is Russia and China, Congressman.
    Mr. Moulton. I agree with you.
    Mr. Norquist. Okay.
    Mr. Moulton. So our greatest national security adversaries 
are literally attacking us every single day through the 
Internet. And we are spending 25 percent more money on a 5th 
century defense technology for our southern border than we are 
on 21st century cyber defenses for the entire country. That, to 
me, is not meeting our national security demands.
    Mr. Norquist. So----
    Mr. Moulton. Thank you, Mr. Norquist. And I now yield to 
Mr. Timmons of South Carolina.
    Oh, I am sorry. Mr. Hern from Oklahoma.
    Mr. Hern. Thank you, Mr. Chairman.
    Mr. Moulton. Okay.
    Mr. Hern. I appreciate it. Great to be here.
    Deputy Secretary Norquist, thank you for being here today 
and for your dedication to fiscal accountability within your 
Department. As a taxpayer and as a person who believes that our 
country's greatest threat is our looming debt and deficits, I 
genuinely appreciate the Pentagon's first-ever audit, and the 
Department's commitment to continual audits.
    Before we get started, I would like to follow up on or 
continue the thought that Mr. Stewart had--from Utah--regarding 
the NATO expense. How much did we spend in fiscal year 2018 
above our 2 percent commitment to fund NATO?
    Mr. Norquist. So as a percent of GDP, the Department of 
Defense is 3.1 percent.
    Mr. Hern. So----
    Mr. Norquist. So it is 1.1 percent above 2.
    Mr. Hern. Okay. And since 2014's codification of the 2 
percent commitment, do you know what that total amount might 
be, just to give a--for the record, how much we have spent 
above----
    Mr. Norquist. I could get that for you, for the record.
    Mr. Hern. Because it is a lot more than the $2 billion we 
are talking about, or the $12 billion we are talking about; it 
is in the hundreds of billions of dollars that we have spent in 
the commitment to NATO and to security around the world.
    As a follow-up to the Chairman's request, while we don't 
expect Russia and China to attack us from the southern border, 
they are not our only security threats from around the world.
    Mr. Norquist. Correct.
    Mr. Hern. There are other people, internally. We have seen 
those; we have seen 9/11. So those were not Russia or China, as 
well. Just to put that for the record, as well.
    Regarding the findings of the audit, are there laws on the 
book that make effective management harder than it needs to be?
    Mr. Norquist. So one of the challenges--and it is--I don't 
want to use the words harder than it needs to be; it makes it 
harder than in the private sector--is we have to do accounting 
two ways. We have to do proprietary accounting, which is the 
way the commercial sector does it, but we also have to do 
budgetary accounting, which accounts for the power of the 
purse.
    The challenge that creates is we have to modify every 
accounting system that we purchase in order to manage money 
both the way that we do for the Congress, as well as the way 
that the private sector would. So that creates some challenge.
    Mr. Hern. Does the budget and the appropriations process 
create problems in and of itself?
    Mr. Norquist. The instability in the budget process creates 
problems throughout the Department of Defense.
    Mr. Hern. The CR process is devastating for commitments to 
contractors and being able to plan, correct?
    Mr. Norquist. It is, and it builds a delay into everything 
we do, because people get so used to it they start moving their 
contracts into the spring. And so you had planned to start an 
acquisition, you had started to plan on research in a new area, 
and by default you have already slowed yourself up by six 
months.
    Mr. Hern. And one would argue that that costs more money 
than necessary.
    Mr. Norquist. It does.
    Mr. Hern. Would greater flexibility in the Appropriation 
Act, for example, that managers at DoD get better returns for 
taxpayers?
    Mr. Norquist. It would. And I think one of the things is 
being able to allow people to shift money to the highest 
priority, or to stop programs when they don't think they are 
paying off. And we always try and encourage that, and the rules 
that help that make it easier [sic].
    Mr. Hern. Before DoD was audited, some argued that we 
couldn't afford to spend the money to conduct the audit, which 
I find interesting. Could you give us an overview of the audit 
process, what we have learned, how much it is expected to save, 
compared to how it has cost--in other words, an ROI on this 
process?
    Mr. Norquist. Sure. So, to start with, any number that ends 
in a billion is a lot. But the Department's audit is one-sixth 
of one percent of its budget. And so, when you think about the 
size of the organization and the desire to have confidence, and 
the insights that you get from that, particularly as we look at 
modern data analytics, where the ability to use that 
information to change and drive behavior.
    So just to give you a couple of examples of the 
improvements that we have found from implementing the audit is 
there are places where we have done inventory. And in some of 
them, like, you go to Osana Kadena Air Base, 14,000 munitions, 
$2.2 billion, no exceptions. You go to other places, and what 
you find it they weren't as diligent, and there were spare 
parts or equipment that are necessary for a military that 
weren't being recorded in the inventory system.
    So the Air Force has--I am sorry, the Navy has moved about 
$80 million worth of parts that it discovered as it was going 
through the audit process into the proper inventory process to 
be available to keep the planes and other--and the ships and 
other things going. Those types of savings, that type of 
discipline, is essential to trying to bring the best practices 
to the Department of Defense.
    And so, while I don't think the audit will generate orders 
of magnitude larger, I think the discipline it brings will at 
least pay for itself, as well as provide better oversight and 
information for the Congress, and better decision-making data 
for the leadership.
    Mr. Hern. And wouldn't you agree, also, that that is a 
responsibility that every organization that takes taxpayer 
money should be looked at? I mean there have been questions 
about--for many generations of lawmakers--that the Pentagon is 
too big to audit, it is too complex to audit. But as an 
organization that takes taxpayer money, it needs to be audited.
    Mr. Norquist. Everything people have said about how complex 
and large and hard-to-audit the Pentagon is true. It is hard. 
It is enormously complex. We have got all sorts of systems. But 
my view is that is not the reason not to audit. That is the 
reason to audit. That is the reason to push that type of 
discipline into the system, because that is where you can get 
the efficiencies, you can start to identify some of these 
challenges.
    So I embrace it, I think it is the right way. I am glad 
this Administration took on this challenge instead of punting 
it down the road again. But as you point out, absolutely, if 
you are going to take taxpayers' money, you have a 
responsibility to subject yourself to an audit, and to act on 
those findings.
    Mr. Hern. What results are you anticipating----
    Mr. Moulton. Sorry.
    Mr. Hern. Oh, sorry.
    Mr. Moulton. The gentleman's time has expired.
    Mr. Hern. Thank you, I yield back.
    Mr. Moulton. Thank you, Mr. Hern. And I now recognize Mr. 
Peters from California.
    Mr. Peters. Thank you, Mr. Chairman. And thank you, Mr. 
Norquist, for being here.
    Since being elected to Congress, and on my time in the 
Armed Services Committee, I voted for budgets that aimed to fix 
the readiness problem within the DoD. For instance, at MCAS 
Miramar in my district, Marines were having to cannibalize 
aircraft in order to try to get their flying requirements 
completed. Thankfully, we have made strides to address 
readiness shortfalls.
    But deploying active-duty personnel to the southern border 
for extended periods of time keeps them away from regular 
training and other activities. And we just learned that the 
commandant of the Marine Corps had a comment about this. He 
called it an unacceptable risk to Marine Corps combat readiness 
and solvency. That is how the commandant of the Marine Corps, 
Generally Neller, referred to the deployment of U.S. Marines 
along the southern border, just next to my district in San 
Diego.
    Do you agree or disagree with General Neller's 
characterization, or is he wrong?
    Mr. Norquist. So the press coverage of what he said was 
wrong. We have talked to the general to make sure we fully 
understood it.
    The Marines--his concern was not the deployment of troops 
to the border. His concern was the reprogrammings and the 
funding that he needs to respond to the hurricane, because the 
hurricane costs to the Marine Corps have been quite extensive, 
the damage to their bases.
    Mr. Peters. Well----
    Mr. Norquist. So his concern was that Congress would choose 
not to approve reprogrammings to restore the bases. That turned 
out not to be the case, but he has to work off of those 
concerns.
    Mr. Peters. Well, I am sure that is part of it, but that is 
not exactly correct. He also discussed how the Marines missed 
or had decreased participation in training exercises with 
partner nations like South Korea, which is helping us to ensure 
that North Korea can't hit the west coast of the U.S. with a 
nuclear warhead.
    So is his assessment of missing out on international 
exercises correct? I mean he mentioned that specifically.
    Mr. Norquist. He mentions that as what he would have to do 
if he didn't get relief on the cost of the hurricane damage.
    And so we sent up a reprogramming for $600 million, $400 
for the Marine Corps, in order to allow him--and his concern 
was if I don't get that reprogramming--so what he asked the 
Secretary to do was to make sure, when he met with the 
committees, he emphasize the importance of getting that 
reprogramming. The Secretary did. The Armed Services Committee 
yesterday--I think the day before--approved that reprogramming. 
So he will be able to get that $400 million.
    But we share his concern. Hurricane damage is a significant 
issue for both the Marine Corps and the Air Force, and we will 
continue to work with them to cover those costs.
    Mr. Peters. And I share his concern about not being able to 
defend ourselves against North Korea, which is a true enemy----
    Mr. Norquist. Absolutely.
    Mr. Peters.----as opposed to Mexico, which also did not 
have anything to do with 9/11, for instance, as was mentioned 
before.
    The President's budget cuts the State Department and other 
international assistance programs by 23 percent. It makes these 
cuts despite public pleas from dozens and dozens of former 
retired generals and admirals to fully fund the State 
Department. The President's former Secretary of Defense once 
put it even more starkly by saying that if the State Department 
is cut, then, ``I need to buy more ammunition.''
    Is the Department concerned that the President's large cuts 
to the State Department budget and proposed disengagement with 
countries looking for help to achieve economic stability and 
democratic governance in the face of destabilizing influences 
will increase the need for military intervention and spending 
in future years?
    Mr. Norquist. So we work very closely with the State 
Department. They are an essential part of our mission and what 
we do with the country.
    I will leave it to the Secretary of State to explain what 
their 2020 budget looks like, and any risks that are drawn from 
that, or any strengths that come from it.
    Mr. Peters. Well, I would just say it is fairly obvious to 
me that investment in diplomacy is a--is very cost-effective, 
in terms of defense, as well as trade. I am personally 
disappointed at the President's withdrawal from leadership in 
trade through trade agreements like the Trans-Pacific 
Partnership. But the State Department is also where we get the 
big bang for our buck in keeping the peace, and making sure 
that we are not having to buy bullets, as the Secretary of 
Defense himself said.
    So I appreciate the concern about readiness, I am concerned 
about wasting money by deploying Marines along the southern 
border, where there is no threat, and this investment in the 
State Department, which is a cost-effective investment in our 
national security. And I will yield back.
    Mr. Moulton. I thank the gentleman and I yield five minutes 
to Mr. Roy from Texas.
    Mr. Roy. Thank you. I thank my friend from Massachusetts 
for yielding. I would like to thank the Deputy Secretary of 
Defense for being here today and taking the time to come before 
us.
    Just as a sort of setting mark here, do you know how much 
our current national debt is?
    Mr. Norquist. I believe it is around--gross national debt 
is about $22 trillion.
    Mr. Roy. Yes, it is a little over $22 trillion. Would it 
astound you to learn that we are racking up about $100 million 
of debt per hour?
    Mr. Norquist. That sounds about right.
    Mr. Roy. It is right. I even got a PolitiFact check on 
that, agreeing, $100 million of debt per hour. So, while we are 
sitting in this hearing, $100 million of debt.
    Have you heard anything today in this Budget Committee 
discussion that would suggest to you any solution to reducing 
the debt coming from anybody in this room, in this Committee?
    Mr. Norquist. I will let the members speak for themselves, 
Congressman.
    Mr. Roy. Okay. Well, I will speak and say I have heard no 
such thing. What I have heard is a cry for more money from the 
magic money trees that the American people are tired of hearing 
Washington pretend exist.
    And so what I would like to know is whether or not you, in 
looking at what we are dealing with from the--some of the 
complaints that I am hearing today about expenditures on our 
southern border, whether or not you think that what you have 
heard in the discussions of what is happening on our border, do 
we have an emergency at our border?
    Mr. Norquist. We do have an emergency at our border. And 
when we talk to the folks from DHS and they describe the 
challenges they face, they are very real.
    Mr. Roy. And are the threats that we have at our border, do 
they need to be the same as the threats that come from other 
parts of the world, whether it be China or Russia or the Middle 
East? The threats at our southern border might be different, 
correct?
    Mr. Norquist. We respond to a range of threats, everything 
from, you know, hurricanes striking areas and doing relief 
operations, to supporting DHS when they give us a request for 
assistance.
    Mr. Roy. And if the Department of Homeland Security had the 
funding necessary to provide what is necessary at the border, 
DoD might engage with DHS differently.
    Mr. Norquist. Correct.
    Mr. Roy. Would it surprise you to learn that the CBP has 
just announced that we are going to have upwards of 100,000 
people in March--100,000 people in March--that are illegally 
crossing, that--they are going to say that is the number that 
we are seeing in March of this year.
    Mr. Norquist. I would trust CBP's analysis.
    Mr. Roy. And that we expect about 400,000 people to come to 
the Rio Grande Valley sector alone, of whom 200,000 will not be 
apprehended. Of the 200,000 who are apprehended, 90 percent 
will be caught and released because we have a dramatically 
broken catch-and-release policy that was implemented by judges.
    Mr. Norquist. There is a number of legal challenges that 
complicate the life of the CBP agents, you are absolutely 
correct.
    Mr. Roy. And for those who suggest that we have a number of 
expenditures that are necessary on the other side of the ledger 
from defense, whether it be a non-defense discretionary, or 
whether it be with respect to mandatory spending, that having 
upwards of a million people coming across our border, either 
undetected or being caught and released into our society, might 
that burden the other pieces of our budget?
    Mr. Norquist. I believe that is what the concern--some of 
the concerns the President had.
    Mr. Roy. A quick question on defense spending, because I 
have only got two minutes left.
    You have got a significant background on the audit 
procedures, and a pretty good amount of oversight in that area. 
So $750 billion is a lot of money. So here is a question that I 
think it important.
    How much money do you believe is wasted every year by the 
Department of Defense due to a variety of factors, including 
rules from Congress, in particular; overall federal 
regulations; environmental regulations; hiring quotas; 
specialization requirements; contracting requirements aside 
from sheer competition; other variables not essential to our 
national security?
    In terms of creating a military whose sole purpose or 
primary purpose is to kill people and destroy things in defense 
of the United States and our national security, all of these 
layers that have been put on the Department of Defense by 
Congress, including, for example, medical research into 
essential--not essential to the war-fighter, sociology research 
and social experimentation--we are going to have a discussion 
tomorrow about transgender transitions.
    Is this the kind of stuff that adds layers of burdens to 
the Department of Defense? And if these things didn't exist, 
how much money might the Department of Defense be able to save 
so that they could kill people and blow up things when 
necessary?
    Mr. Norquist. So I couldn't put a dollar value on it, but 
there is a number of layers of complexity that gets put on our 
processes, on our hiring, on our contracting that complicate 
and slow up the process, and create additional costs.
    Mr. Roy. And a number of those things come from Congress, 
correct?
    Mr. Norquist. All of our legislative direction comes from 
Congress, Congressman.
    Mr. Roy. Is there a way for us to, in the audit process, 
put a number on what that might look like? In a hypothetical 
universe in which we are able to say to defense, ``Look, your 
mission is to kill people and blow up things when it is 
appropriate in the defense of the United States of America, 
when the Commander in Chief calls up our armed forces in 
support of what Congress is appropriating.'' If we were to, in 
a hypothetical universe, say, ``You are free from all of the 
regulations that are put on you,'' how much more could you 
squeeze out of the $750 billion or, for example, even less, 
$700 billion, if necessary?
    And that will be my last question, and thank you for being 
here.
    Mr. Norquist. So what the audit does is it lets you be able 
to have better as-is costs to do data analytics. That would 
allow you to compare to whether other benchmarks--either how a 
process is done in the private sector, logistics, whatever--and 
you could see, for those who function with a different set of 
rules, are they able to produce it for significantly less? And 
what are those changes we might do to mirror those private-
sector practices?
    Mr. Roy. Thank you.
    Mr. Moulton. The gentleman's time has expired.
    Mr. Roy, I thank you. I just point out that to quote 
complaints about expenditures are, literally, just that. I now 
recognize Mr. Horsford from Nevada.
    Mr. Horsford. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing to discuss the President's 2020 
defense budget.
    I specifically want to focus on military construction. 
DoD's budget includes $9 billion of emergency funds under one 
line item called ``unspecified worldwide construction.'' The 
Department provided no detail for this request, other than 
saying it will use $7.2 billion of these funds to pay back 2019 
military construction projects the President is deferring to 
free up funds for border wall construction as part of his 
emergency declaration, and for new border wall construction in 
2020.
    The President's proposal threatens to cut federal funding 
from previously-approved projects for active-duty military 
efforts throughout the country and in my district. Creech Air 
Force Base in our district is at risk of losing $59 million; 
Nellis Air Force Base is at risk of losing $5.9 million; and 
the National Guard Readiness Center in North Las Vegas is at 
risk of losing $32 million.
    DoD released a list of military construction projects that 
could potentially be deferred from Trump--for Trump's border 
wall. When the acting OMB Director came before this Committee 
just a few weeks ago he could not answer this simple question, 
so I will ask you.
    Can you guarantee me and the men and women at Nellis Air 
Force Base and Creech Air Force Base that this Administration 
will not strip away their funds to pay for a border wall?
    Mr. Norquist. So I would need to look at the individual 
projects. So let me tell you the rules----
    Mr. Horsford. Can you provide that information to me and 
this Committee?
    Mr. Norquist. The answer to your question, so let me tell 
you how--if we look at the list----
    Mr. Horsford. I was asking can you respond to--you said you 
can't answer today. Can you provide that information----
    Mr. Norquist. For the record?
    Mr. Horsford. For the record, yes.
    Mr. Norquist. Yes, sir.
    Mr. Horsford. Thank you. Please continue.
    Mr. Norquist. Sure. So what we provided to Congress was a 
list of all the projects that had not been awarded as of 1 
January, and that showed the pool, the universe of projects 
that were in process.
    And so what we committed to was if the project was 
scheduled to be awarded before 30 September--in other words, 
during the time period when the budget was under 
consideration--those projects wouldn't be affected.
    So with regard to the ones from Nevada, I would have to 
look at the award dates. But I believe that was information 
included in the report we provided.
    Mr. Horsford. What is the arbitrary standard with an award 
date? These are critical missions.
    As you know, Nellis Air Force Base, Creech Air Force Base 
provide some of the most critical military operations in our 
national security interest. So----
    Mr. Norquist. Nellis is absolutely essential, let me just 
highlight the value of Nellis----
    Mr. Horsford. Creech is----
    Mr. Norquist. Absolutely.
    Mr. Horsford.----is, as well, as you know.
    Mr. Norquist. There is a range of facilities in Nevada that 
are valuable to our national security, they are essential for 
the training and for a number of different functions they 
perform.
    The reason for the date is that the 3.6 that you mentioned 
the President requested, if enacted by the Congress, would 
allow all of those projects to continue. And so if we were to 
take funds from a project scheduled to be awarded this month, 
that would be delayed until such time as the appropriation----
    Mr. Horsford. Right, but is there no determination of the 
nature of the impact to those cuts to the military bases?
    Mr. Norquist. Yes.
    Mr. Horsford. Other than an arbitrary date?
    Mr. Norquist. The first one is the date. The second is, 
within that pool, how do we--you know, whatever the numbers 
that the Secretary eventually identifies, those would be based 
on protecting those items with the greatest effect on 
readiness. So which are the projects that we need--in other 
words, the pool of things that are awarded after 30 September 
is greater than $3.6 billion.
    So it is only a subset of those that would be affected. 
And, as you point out, the merits of that individual project 
would play a factor in the determination, absolutely.
    Mr. Horsford. And when will the Department determine the 
specific projects it will defer?
    Mr. Norquist. Sure. So the process we have is we have the 
request from--we have the information from DHS, where we set, 
under 2808, what are potential construction projects. They have 
sent that to us recently. That then goes to our joint staff, 
who does an analysis of whether or not those projects meet the 
legal requirements of 2808, of being in support of our military 
presence.
    If it--they concur it does, and identify certain projects 
that do, the Secretary of Defense will make a decision whether 
it is $3.6 billion or some lower number, and says okay, this is 
what we are going to do, either now or in total. We will match 
those up with these are the projects that we would need to 
defer, or at least flag until we get an enacted bill, and then 
we provide that information to Congress, so you would know.
    Mr. Horsford. So I look forward to your response and the 
guarantee that you will tell us whether or not these medical--
critical missions at Nellis Air Force Base and Creech will be 
threatened, based on the proposed cuts by this Administration.
    Mr. Moulton. Thank you. The gentleman's time has expired. I 
now recognize Mr. Timmons from South Carolina for five minutes.
    Mr. Timmons. Thank you, Mr. Chairman. Thank you, Mr. 
Norquist, for coming before the Committee today to answer our 
questions. I want to start out talking about the national debt 
and its impact on our ability to fulfill the National Defense 
Strategy.
    So in 2010, the Chairman of the joint chiefs at the time, 
Admiral Mullen, stated that the national debt was the greatest 
threat to national security. At the time it was $13 trillion. 
So fast forward nine years, we now have $22 trillion of debt, 
we are likely going to have a $1 trillion deficit budget this 
year, and there seems to be no end in sight.
    So what I want to ask you is there will be a point where we 
can no longer borrow money. What happens if we reach that point 
and we tell the Department of Defense that they are going to 
have 20, 25 percent cut in their funding?
    Mr. Norquist. So the point you bring out is very important, 
which is paying attention to the deficit and addressing the 
debt issue is as essential as--the key is both solvency and 
security. They have to go hand in hand. You cannot be--and have 
long-term security if you do not address, in the long term, the 
solvency issue.
    If the consequence, as you pointed, were a 25 percent--you 
are looking at, basically, a stronger and deeper version of 
sequestration. You would dramatically reduce the size of the 
force, you would cut back on training, you would lose the 
critical equipment, you would have bought into a force that you 
would not be able to sustain.
    Mr. Timmons. So would you say that our skyrocketing 
national debt is one of the greatest national security threats 
facing our country?
    Mr. Norquist. Absolutely.
    Mr. Timmons. Thank you. I want to discuss one other issue 
with you today.
    In the budget request for fiscal year 2020 eight new F-15s 
and 78 new F-35s were requested; last year it was zero F-15s 
and 93 F-35s. So why did the Department of Defense decide to 
request additional fourth-generation aircraft, the F-15, this 
year when there was no money appropriated for them last year? 
And why did the request for the F-35s decrease?
    And if we abide by the request, how will this affect DoD 
operations in the long term?
    Mr. Norquist. So what we looked at, as we kept in mind the 
long-term challenges, is what is the range--first of all, let 
me--the F-35 is an essential aircraft. It is a fifth-
generation. When we talk about being able to compete in the 
high-end fight, it is the type of aircraft you need for those 
missions. Its capabilities are exquisite.
    It is also an expensive platform, particularly in terms of 
long-term maintenance. So what we looked at is are there 
functions that we need aircraft to perform where that is not 
the necessary requirement? And so you look at capacity. Non-
stealthy aircraft can carry more munitions on the wing, so 
their capacity is greater. Their long-term maintenance costs 
are lower.
    So the answer is you need a mix, and that is one of the 
things that this budget is designed to do, is to introduce a 
mix. We are still committed to the F-35; it is the core of our 
future. But there are missions to which using the F-35 would be 
an expensive overkill for the type of target and function, and 
the answer is a fourth-generation can perform that function 
just fine.
    Mr. Timmons. That was a very helpful answer, thank you.
    I yield back my time. Thank you.
    Mr. Moulton. I thank the gentleman from South Carolina, and 
now I yield five minutes to Mr. Panetta from California.
    Mr. Panetta. Thank you, Mr. Chairman, I appreciate this 
opportunity.
    Mr. Norquist, thank you for being here, and your 
preparation--not only for being here, but everything that you 
have done leading up to this point. So I appreciate your work 
and your service.
    Mr. Norquist. Thank you.
    Mr. Panetta. Just some quick questions, I am going to throw 
you out some softball questions here real quick. Can you 
describe the benefits to the Department when--to the Department 
and to the Congress of what it comes down to when reaching 
another two-year budget deal that would raise the budget cap 
for 2020 and 2021 the last two years of the Budget Control Act?
    Mr. Norquist. So the--it is tremendously valuable to the 
Department of Defense to have stable and predictable funding. 
So the mechanism Congress uses to do that I leave to you.
    But the value of a bipartisan agreement ensures that when 
we--we do multi-year planning. We look out six years. And so 
what we want to do is be clear to the industry, to our own 
workforce. We don't want to increase the end strength of the 
military if the budget isn't going to be there to pay them. We 
will end up pushing the folks right back out of the military. 
Or we start to ramp up production of something we can't 
sustain.
    So having that predictability is a tremendous benefit both 
to the military, but also to the men and women in the force who 
now know their mission and what their future challenges are.
    Mr. Panetta. Okay, all right. And the--obviously - and just 
briefly, because I think you could probably go on and on about 
this--continuing resolutions, how do they affect the Pentagon's 
operations?
    Mr. Norquist. So continuing resolutions have a number of 
specific effects, and then a number of lingering effects.
    The first one is they immediately prevent new starts. And 
that means if I was scheduled to have a production line go from 
five to 10, the answer is it flat lines at five, which is 
disruptive.
    The second is if you had a new start, a new technology, a 
new area. Well, that is on hold until you get to the end. That 
is the first and immediate. There is some bureaucratic costs 
where you have to keep reissuing things in pieces, awarding 
contracts in pieces.
    But I think there are two bigger challenges you are getting 
to, which is, one, it creates a tremendous amount of 
uncertainty throughout the country. If you are a depot whose 
job it is to do maintenance, what is the amount of work you 
should be expecting? Is it going to be up? Is it going to be 
down? You are now on a month-to-month, so never mind year-to-
year predictability; you don't even have month-to-month 
predictability. So you might be willing to hire workers to be 
able to meet the demand for additional maintenance, but you are 
unwilling to because you can't be confident you are going to 
see that level of work.
    And I think those are some of the challenges that ripple 
through the system. And it is definitely valuable that Congress 
enacted the budget on time last year; that was a tremendous 
help.
    Mr. Panetta. Okay, great. Now, backing up a little bit, 
obviously I think you have been receiving questions in regards 
to the use of OCO to get around the budget caps. I mean it 
seems like the Administration does--just doesn't want to have 
any negotiations on raising these budget caps, and would rather 
use this sort of backdoor loophole to increase defense funding. 
Is that correct?
    Mr. Norquist. So I will leave it to the Congress and OMB to 
work out the negotiations. What we did is we built up the 
requirement and presented it the way we were asked to present 
it.
    Mr. Panetta. Understood, understood.
    Going--moving to another area, the President's budget 
request reduces non-defense discretionary funding to the USGS, 
U.S. Geological Survey, by 46 percent; the Department of Energy 
Office of Science by 30 percent; National Science Foundation by 
12 percent; FEMA's flood hazard mapping and risk analysis 
program about 62 percent, along with another--along with a 
bunch of other climate and environmental programs that are cut 
pretty severely, unfortunately, as a budget.
    Obviously, climate change affects DoD operations, I think 
as we have all seen, and has been testified to--at least in my 
limited time--on Armed Services last term. What can the DoD do 
at this point to counter-balance such reductions in non-defense 
discretionary funding when it comes to combating climate 
change?
    Mr. Norquist. So I can't speak to the civilian agencies, 
but on the defense side one of the things we have to look at is 
resilience. We have to have equipment and facilities that can 
operate in the Arctic, that can operate in the desert. We have 
to have facilities--and as we have had some of these recent 
hurricanes--redesigning them to be more resistant to the higher 
winds and other issues that we have to deal with, in order to 
be able to operate regardless of the conditions we face.
    Mr. Panetta. Great, great. And once again, Mr. Norquist, 
thank you for your time today.
    I yield back.
    Mr. Norquist. Thank you.
    Mr. Panetta. Thank you.
    Mr. Chairman?
    Mr. Moulton. I thank the gentleman from California and now 
yield five minutes to Mr. Woodall from Georgia.
    Mr. Woodall. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Norquist. I wanted to talk 
about things that we can do better. I think everybody at the 
table that has a passion for the nation wants to see a strong 
DoD that is doing--executing the mission the way we want it to 
be executed.
    I am not picking on the Navy in any way, shape, or form, it 
just happens to be the GAO report that was on the top of my 
desk most recently, looking at shipbuilding challenges and 
contractor overruns. What am I seeing in the defense budget 
this cycle that goes directly in line with we are going to do 
the audit because we need to know where the challenges are?
    Now, we have identified so many challenges in our contract 
and procurement system, talk to me about some of the changes 
that we are going to see in this next round of budget requests.
    Mr. Norquist. Sure. So one of the things we are looking at 
in the budget, we are looking at--and I will use IT as an 
example--when you buy licenses through IT, you tend to pay a 
certain amount if you are buying one, and then slightly less if 
you are buying 10, and so forth.
    One of the things we are trying to do is make sure we have 
a visibility over all the licenses across it, so we can 
consolidate them. And we are going through--and then, when you 
purchase those centrally, you get a lower price. You also get 
IT security improvements, because you know where they are and 
how they are deployed. And so, as we work this in parallel with 
cyber security, we are being able to drive down the cost of 
what we order.
    The same sort of category management approach applies to 
other areas. People buy pharmaceuticals. We have a range of 
contracts that do that. Well, that means there are certain 
drugs that we get at different prices, based on different 
contracts. The ability to go across those, order it off the 
least expensive one, save the taxpayers money.
    So the series of reforms in those areas--and I believe 
that, you know, the acquisition folks--I can get you some 
things for the record of what they are doing in A&S with regard 
to shipbuilding and others.
    Mr. Woodall. Because I would call the--I would call much of 
that the low-hanging fruit. Sadly, HR is getting higher and 
higher as a percentage of the budget. And so yes, dealing with 
prescription drugs is a bigger and bigger issue. But when you 
are talking about a multi-billion-dollar piece of equipment, 
those overruns, even at the lower end of the percentage scale, 
become quite the challenge.
    We--on the Transportation Committee we have had those 
conversations about the new way FAA is certifying planes, the 
ways that technology has led to a faster and more efficient 
safety certification. Are we seeing that same thing in DoD? 
What differences will I see in the way that we procure and 
certify equipment today from, say, 15 years ago?
    Mr. Norquist. So I think one of the things that OT&E has 
looked at is how to--when they do testing, how to combine 
certain tests within a certain operation, or how to combine 
some things in DOT&E so they know they work by that time to get 
to OT&E, to not be as segmented in their approach. I have 
talked to the individual who runs that organization, he is very 
excited about the reforms and the benefits they are able to 
get.
    Certainly it depends on the program. Certain ones, the 
answer is you are going to take them methodically, because that 
is what is required to ensure you get the right product. But 
where we can see savings and efficiencies, you are going to try 
and grab them.
    Mr. Woodall. One of the first pieces of advice I got when I 
came to Capitol Hill was, ``Rob, if you need anything on the 
defense, don't call the Pentagon, call the guy who left the 
Pentagon yesterday, because that way you can get the answer 
that may not be the party line, but is where the bodies are 
buried.''
    I appreciate the work that you do there. Being the first 
CFO at Homeland could not have been an easy challenge. And 
doing the--not only your responsibilities, but your acting 
responsibilities, we all would be the poorer for it had you not 
said yes to that challenge. So thank you for that.
    I yield back.
    Mr. Norquist. Thank you so much.
    Chairman Yarmuth. I thank the gentleman. I now recognize 
the gentlelady from Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you so much, Mr. Chairman. Before I 
start with my questions for Mr. Norquist, I just wanted to 
clarify the exchange that I had yesterday for the record with 
Deputy Secretary Hargan. I mentioned that the CDC budget is 
being cut by 20 percent, and the secretary responded that it 
was actually a 1 percent reduction. And then Mr. Woodall and I 
had an exchange where I said I would go back and just make sure 
my numbers were right.
    So, to be clear, the CDC's budget authority is $5.3 billion 
for 2020, compared to $6.6 billion for 2019, which is the 20 
percent reduction I mentioned.
    Secretary Hargan is not wrong that the overall amount 
allocated is just a 1 percent reduction. But, in fact, what 
they did is substitute discretionary spending with mandatory 
spending on vaccines, specifically, which means that all the 
discretionary programs within the CDC would have to be cut in 
some combination for that 20 percent discretionary reduction. 
And in the past, when that has happened, the cuts have been to 
things like the cancer prevention and control program, the 
national early childcare program, and many more.
    So I am hoping that Mr. Woodall and I can work together on 
an amendment to restore some of that funding to the CDC, and I 
look forward to that.
    So thank you so much, Mr. Under Secretary Norquist, for 
being here. I wanted to talk about the audit, and just pick up 
on Mr. Woodall's questions.
    So we appreciate that the Pentagon did finally do its first 
audit in 2018. Only five of the 21 individual audits received a 
passing grade, and yet we are still being asked for $750 
billion in defense spending for 2020.
    And so you have already talked about some of the steps that 
you are taking. But for this year's audit, how many or what 
percentage of Pentagon agencies do you expect will receive a 
passing grade? What is--what are you shooting for?
    Mr. Norquist. So they have--we hope this original five will 
continue to get it. There is potentially two more agencies that 
could move up to a clean opinion; I am watching those very 
carefully. What I expect to happen over the next several years 
is some of the other agencies who went under audit for just the 
first time will start to move to a modified, which is ``you are 
okay, but,'' which is halfway to the clean opinion, and then 
see that over some period of time.
    This will not be quick, but I think it is an important 
work, and it reflects the depths of the challenges that we need 
to address.
    Ms. Jayapal. And is it possible that you could get to more 
than a third? I mean I appreciate that you want to add two 
more, but that would only be seven out of 21 of the individual 
audits that would pass. How can you get to a higher level, when 
you are asking for such a big appropriation?
    And we all want to support the Pentagon, but we want to 
make sure that every single dollar is spent wisely. Can you 
push so that the Pentagon doesn't have just a goal of adding 
two more clean pieces there? Can we get to at least 50 percent 
by this year?
    Mr. Norquist. So what we have done to track it is what the 
auditors actually issue us is called a notice of findings and 
recommendations, where every time there is a specific problem 
they say, ``Here is an NFR.'' And we have, I think, 2,300 or 
more of those.
    In order to get to a clean opinion, you have to reduce 
those numbers to such a small amount that they can give you a 
clean opinion. So what we are tracking is, rather than simply 
pass/fail, how are you doing on reducing those 2,300 NFRs. We 
have a database to track them, we have people who are 
accountable.
    One of the things I want to be able to do for Congress--
because it is a tool that I used when I was doing this at 
Homeland Security--is a year from now, two years from now, 
``Here is the organization that used to have 200 NFRs, they are 
now down to 50; here is the organization that used to have 100, 
they are still at 100, you might want to invite them to a 
hearing.'' And that allows you to get past the question of the 
Department to organizations within the Department and 
individual functions. Are they making progress? Are they fixing 
it?
    But I think, for the Congress, the frustration is, if it is 
just pass/fail, you are just going to get frustrated----
    Ms. Jayapal. Well, there is a bigger frustration, which is 
that the Defense Department has more unheeded audit 
recommendations than any other agency, according to the GAO. 
So, as of September 2018, the Pentagon had failed to implement 
more than half of the 1,122 recommendations that GAO had put 
forth between 2014 and 2017. So it is not like these are new 
recommendations; they have been in the books for some time. And 
actually, of the GAO's 68 priority recommendations, only 18 
were implemented.
    So how are you ensuring that you are allocating resources 
to really look at those top-priority recommendations and get 
those into place right away? I don't know why we would need to 
wait on implementing those recommendations.
    Mr. Norquist. So you wouldn't. So what--let me take the two 
parts, because there is recommendations and then there are the 
findings from the audit. Some come from IG-GAO, but we do both.
    Ms. Jayapal. Right.
    Mr. Norquist. So with regard to the audit, what we said for 
the priority is real property, inventory, IT security. Of all 
of the audit findings, those have the most direct effect on the 
taxpayer, they have the most direct effect on readiness. The 
Secretary issued a directive to each of the services to 
prioritize those areas.
    Within the other ones, I met with each of the services to 
go over that larger list with the IG there. We always invite 
the IG to these meetings. What is the process to track them? 
What is the organization?
    Some of the services, the IG felt, had a much better 
process. So we have got the other services looking at that and 
adopting it. But our goal is to be able to identify those--as 
you point out, those ones that have the highest payoff, and 
drive those first.
    There is a volume issue, but you still can focus on the 
highest priorities and work on those first.
    Ms. Jayapal. Thank you. I really appreciate your attention 
to this. I think it is critical for the taxpayers.
    Thank you, Mr. Chairman. I yield back.
    Chairman Yarmuth. Absolutely. I now recognize the 
gentlelady from California, Ms. Lee, for five minutes.
    Ms. Lee of California. Thank you very much, Mr. Chairman.
    Let me be clear about a couple of things, Mr. Secretary. 
First of all, there have been revelations of massive waste, 
fraud, and abuse at the Pentagon. Let me list a couple.
    The Pentagon awarded a 7 million cloud computing contract 
to a one-person company.
    The Defense Logistics Agency lost track, mind you, of $800 
million in construction projects. Just lost track of that 
funding.
    Last year the Pentagon spent $4.6 million on crab and 
lobster in an end-of-the-year, I guess, party, or dinner. I 
know several years ago there was a report--I believe it was 
issued by the Pentagon--over $100 billion in waste, fraud, and 
abuse that had been identified.
    So, Mr. Secretary, should the taxpayers throw more money at 
a Department unable to combat this kind of waste, fraud, and 
abuse, or even understand how much it is spending? Just in 
terms of being prudent about taxpayer dollars, one would think 
we would stop the increase, minimally, of funds going into the 
Pentagon until at least these areas are corrected for.
    Why would we continue to give you more money, more money, 
more money, and--of course the audit hasn't been completed, but 
we know there is plenty of waste, fraud, and abuse in the 
Pentagon that warrants us stopping the increase.
    Mr. Norquist. So let me go and address some of those. And 
let me, before I do that, begin by thanking you and the other 
members who were such big supporters of the audit. The only 
reason I was able to walk into this organization and have the 
audit begin as quickly as I did with the support I did is 
because Members of Congress have been beating this drum from 
the beginning. This is something that needed that level of 
extra support. I know you were central that. So again, I thank 
you----
    Ms. Lee of California. Well----
    Mr. Norquist.----for making my life on that easier.
    Ms. Lee of California. Thank you, Mr. Secretary. Let me 
just say, you know, your brother, we had a strange alliance, 
which worked, Democrat and Republican, and Mr. Norquist--he is 
your brother, right?
    Mr. Norquist. He is, and I preached the virtues of the 
audit to him, as well.
    Ms. Lee of California. We worked together on this from the 
outside.
    Mr. Norquist. Right.
    Ms. Lee of California. So thank you very much.
    Mr. Norquist. So let me address a couple of the ones that 
you mentioned.
    So, for example, the Defense Logistics Agency, there was an 
article that talked about $800 million in construction. That 
was an audit finding that said that they listed $800 million in 
construction under construction in progress. The proper 
accounting line for that should have been construction 
complete, because those projects were finished.
    The money wasn't lost; the buildings weren't lost. They had 
posted it to the wrong line, or, more accurately, they had 
posted it to the right line, but not updated it when those 
projects were completed. We care, we need to get that fixed, 
but that is not a misuse or a misplacement of the $800 million. 
But it is one of the things that we look for under the audit 
for discipline.
    The other one that got my attention, as you mentioned, the 
$4.6 million related to lobsters. I saw that article. I had the 
same reaction you did. I started drilling down and said, ``Who 
is buying this, and what is it for?''
    What I discovered, first of all, it is not a year-end 
issue, it actually is--we buy food for the military all year 
long. These are then put into the chow halls. Either they 
purchase it with their own food allowance or, in some cases, 
the unit they belong to pools their money. And so some days 
they will have pasta, which is less expensive, and then on 
Friday they may have a fancier meal, with either surf and turf 
or something.
    So I ran the numbers, $4.6 million, with $1.3 million 
active duty. You are talking about $4 a month. So you are 
probably looking at one meal a month which has that sort of 
seafood.
    So I--you are right to raise the concern. Whenever I look 
at year-end funding, my first question was, was that a 
bureaucracy organization having a party? And in this case it is 
not, it is the food for the soldiers, and it is the type of 
thing that is part of our operations.
    So I don't think that one is a concern, but it--I share--
when I see those I have your same reaction, which is what is 
that drawing, is that something I need to go after somebody 
for, or am I just reading a news story that sensationalized it.
    Ms. Lee of California. How about the cloud computing 
contract?
    Mr. Norquist. I am not as familiar with that one, 
Congresswoman, I would have to go look into that.
    Ms. Lee of California. Well, I think, generally, though, 
when you look at the waste, fraud, and abuse over at the 
Pentagon--and again, I hope you would go back and find the 
report that the Pentagon issued a couple of years ago, $100 
billion plus----
    Mr. Norquist. Defense Business Board.
    Ms. Lee of California. Yes. And what, to me, seems to be 
totally--you know, I think it is not keeping with what the 
three pillars of our national security strategy should be, in 
terms of defense, diplomacy, and development. We are looking at 
an increased, bloated military budget that far outweighs, now, 
the other two pillars of our national security strategy. And, 
in fact, we see now cuts, huge cuts, in diplomacy and 
development.
    And so I would hope that you would find a way to make sure 
that this Administration understands we need to put some checks 
on this bloated increase and go back to the drawing board.
    And also, with regard to OCO, I know others have raised it. 
You know, we need to be honest with the taxpayer, and we need 
to let them know what we have committed to paying. And I, once 
again, believe you need to include that in--as part of the base 
budget, or eliminate it totally.
    Mr. Norquist. So just--we share your concern. One of the 
things we do is we build the budget for defense off of the 
requirements. But we have a responsibility for stewardship, so 
whenever we see these issues we police it.
    I have read the Defense Business Board report you are 
talking about. The challenge I have--and I know the previous 
Administration was the ones who first received it--is it lays 
out certain categories, and then says if defense could get 7 
percent more efficient a year it could save money. But it 
doesn't give us particular ways forward.
    Some of those areas are the very ones I was talking about 
earlier, where we have put processes in place to try and drive 
efficiencies in them because we share concerns about trying to 
get the most for the taxpayers' money in those areas.
    Chairman Yarmuth. The gentlelady's time is expired.
    Ms. Lee of California. Thank you, Mr. Chairman.
    Chairman Yarmuth. I now recognize the wonderful Ranking 
Member, my friend from Arkansas, Mr. Womack.
    Mr. Womack. Thank you, Mr. Yarmuth.
    Chairman Yarmuth. Ten minutes.
    Mr. Womack. Thank you for your time, for the time, and 
thank you, Mr. Secretary, for your being here today.
    Before I ask a couple of questions, I would like to take a 
minute to address some misinformation that I think has been 
raised during the hearing today.
    First and foremost, one of my friends on the other side of 
the aisle claimed that there is little congressional oversight 
on the Department of Defense. I would respectfully disagree. 
There have been over 50 consecutive National Defense 
Authorization Acts signed into law. I happen to be a member of 
the House Appropriations Committee on Defense, and have many 
oversight hearings relative to defense spending.
    I think it is a significant benchmark, especially when you 
consider the infrequency of some authorization legislation in 
the Congress of the United States. There are other authorizing 
Committees that should do a lot better job.
    I would also like to point out the conflict my friends on 
the other side of the aisle seem to be having. They can't seem 
to agree on a defense top-line number. Some criticize the 
defense budget--Ms. Lee just said it was bloated, questioning 
the motives of leadership in the Department of Defense. Others 
have spent time expressing concern about how failure to invest 
in certain DoD projects will affect their districts. So we get 
mixed signals, which leads me to wonder what is the plan. You 
know? What are we going to do with defense funding?
    I would also like to point out that during the discussion 
one of my colleagues on the other side of the dais said that 
increasing our defense spending does not align with the 
priorities of the American people. Well, according to a Gallup 
poll earlier this year, a vast majority of American people are 
satisfied with our national defense. This budget request will 
ensure we continue this level of national security, going 
forward.
    And I would signal that the distinguished witness that we 
have here today is doing a great job. He did it at Homeland 
Security, he is doing a great job in the Pentagon, with audits 
and other oversight matters. And I compliment him on that. So I 
do appreciate it.
    There was also a question raised, though, about the border 
wall, and the movement of money away from some programs to 
accomplish better border security; the impact on readiness, if 
any. The effort, though, is comparable to many of the 
military's impromptu humanitarian aid missions, isn't that 
correct, Mr. Secretary?
    Mr. Norquist. Correct. We respond to requests for 
assistance from DHA [sic] here. We respond to requirements to 
go and assist both our country and others in response to a 
hurricane or other disaster.
    Mr. Womack. So let me get to a couple of questions. One, 
assuming that we are successful in satisfying the Pentagon's 
desire for a $750 million budget in 2020, can you guarantee the 
national security of the United States of America?
    Mr. Norquist. I----
    Mr. Womack. Does that guarantee everything? So we give you 
the money, you guarantee that we are going to be safe and 
secure?
    Mr. Norquist. So the enemy gets a vote, and I think that we 
have to be attentive to that. But we believe that that type of 
resources allows us to secure the country and provide a robust 
deterrence to deter adversaries----
    Mr. Womack. Because the enemy gets a vote, though, am I 
hearing you say that that doesn't--not necessarily guarantee--
there are some other factors that might be involved in whether 
or not $750 billion would be, you know, satisfactory?
    Mr. Norquist. Well, there are some types of challenges 
where you deter an opponent, but if your opponent is 
sufficiently unreasonable, then you have to respond. And so 
what we look for is one that we can deter. And if we--if you 
have an opponent who is not deterred that we can then defeat. 
And that is the challenge we face.
    Mr. Womack. But it is safe to say, though, that if you 
provide this level of funding, the likelihood is you will have 
a better chance at peace through strength because----
    Mr. Norquist. Absolutely. You have a--but you will have a 
military that deters others from seeking aggression. We want to 
push them for peaceful competition.
    We understand we are going to have competition with other 
countries, but we want to stay on the peaceful side. And the 
more we can deter them from either open conflict, or that sort 
of cyber gray zone conflict, the safer we can keep the country 
in--both in the near term, as well as five, 10, 15 years from 
now, making those investments to have deterrents in the future.
    Mr. Womack. But $750 billion is a lot of money.
    Mr. Norquist. It is absolutely a lot. Any number that ends 
in a B is a large----
    Mr. Womack. Buy a lot of things, wouldn't it?
    Mr. Norquist. It absolutely would.
    Mr. Womack. So what would it take--I want to shift away 
from defense spending for just a minute and go back to non-
defense spending, which has been raised by some of my 
colleagues on the other side.
    How much money would it take to guarantee a citizen's 
prosperity?
    Mr. Norquist. So I think, in terms of defense, you secure 
the country. In terms of prosperity, you are looking at what 
does it take to have solid, economic growth.
    Mr. Womack. How much would it take to guarantee, say, 
everybody has free housing? How much would it take----
    Mr. Norquist.----give you those sort of numbers. They would 
be large.
    Mr. Womack. How much would it take to say that everybody--
no one goes hungry, that everybody has a job--not only has a 
job, but how many people would have a wage that would be 
satisfactory to the living conditions in the economy where they 
live?
    Free medical care, how much would it take to make sure--
because I distinctly remember hearing my friend from Minnesota 
say--and I thought she misspoke, but she said that we should 
guarantee Americans' prosperity. I thought she misspoke, but 
she said it again at the end of her comments, that part of what 
this country's purpose is is to guarantee somebody's 
prosperity.
    Do you agree with that statement? Is it--should we 
guarantee someone's prosperity?
    Mr. Norquist. What we need to do is provide opportunity and 
the advantages of a strong economy. I think if you were trying 
to get a sense of your estimate, a third of our budget is 
dedicated to the pay and maintenance and health care and 
housing of our own force, and that is only 3 million people. So 
if you wanted to multiply that out, that would show you the 
scale at which you would need to operate.
    Mr. Womack. But clearly, having a safe and secure country, 
everything begins with that.
    Mr. Norquist. That is the prerequisite.
    Mr. Womack. Correct? And if you don't have a safe and 
secure country, none of those other things make any difference, 
because we would be vulnerable, we----
    Mr. Norquist. Absolutely, Congressman.
    Mr. Womack. Okay. I think I have made my point. The 
difference is in the Constitution--as I said in my opening 
statement--in the Preamble it says, ``provide for the common 
defense.'' That is a constitutional imperative.
    And then I think, on the other side, on the non-defense 
side, it is more a case of creating the conditions on which 
someone can live that American Dream, can be prosperous if they 
make good decisions and if the government is there to create 
the climate on which--that those decisions can cause somebody 
to enjoy success in their life and, as I say, live that 
American Dream. I will leave it there.
    I want to take the last couple of minutes of my time and 
talk a little bit about something that you mentioned earlier 
about budgeting and appropriations.
    I personally think--and I am not going to get any argument 
from the Chairman, because we are both in sync on this issue, 
we both served on the Joint Select Committee on Budget Process 
Reform last year, did a lot of great work. We were both yes on 
the minimal reforms that we were anticipating making.
    But you said earlier that longer lead times is preferable. 
I would argue the Defense Department operates unlike any other 
federal bureaucracy. You have got to have long lead times. You 
don't build aircraft carriers overnight, you don't respond to 
threats--I mean we have to respond to threats. We got the Fight 
Tonight strategy, but we have also got the implications of 
long-term and large-scale potential conflicts looming out there 
that we have to be prepared for. It is a tremendous fight to 
keep up with the ongoing needs of the Department of Defense.
    But how critical is it that the Congress of the United 
States deliver on some kind of process that can give better 
certainty to the Defense Department as it concerns budgets and 
appropriations?
    Mr. Norquist. I think it is absolutely essential. If you 
realize the challenge you get if you build a budget, thinking 
you have one size force, and then the budget radically changes, 
you spend a lot of money to build a capability that you can't 
use, and so you have lost billions of dollars when you have 
that sort of swing.
    You also create instability for the families who live in 
the military and who serve, in terms of when they have--you 
know, we had a shutdown, and you think of the National Guard. 
On Friday they have to--and this was not this year. Luckily we 
had the appropriation bill on time, our Guard was spared these 
challenges.
    But in prior years they have to decide on Friday whether to 
drive to their duty station on Saturday. But the vote on the CR 
is at midnight, or sometime late on Friday. They are already in 
their car, or their units already canceled the drill. That sort 
of back-and-forth creates personal disruption. And when you are 
trying to increase retention and keep people in the force, that 
sort of stability matters for them as much as it does for our 
industry and our contractors.
    Mr. Womack. Mr. Norquist, I thank you for your service. 
Behind you, you have got a group of staff back there, some 
familiar faces, and I know the kind of work that they do, and 
you are blessed to have them, and we appreciate your service to 
our country and the work that you are doing in the Pentagon, 
and I thank you for being here today.
    Mr. Norquist. Thank you. They are amazing.
    Mr. Womack. I yield back.
    Chairman Yarmuth. I thank the Ranking Member. And we have a 
new arrival. I recognize--I now recognize the gentleman from 
California, Mr. Khanna, for five minutes.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you, Mr. 
Norquist, for being here.
    My first question is regarding the $1 billion 
reprogramming. I just want to understand how this works. Is the 
money already actually available to the Department of Homeland 
Security? I mean can they start construction? Or is this just 
an accounting shuffling of resources?
    Mr. Norquist. So the money at no point goes to the 
Department of Homeland Security. The request came from them, to 
us for assistance. The Secretary did the review, we did the 
analysis, agreed, supported, and complied with the law. The 
reprogramming went up to Congress. So that money is moving 
inside the Department between one account and another.
    It then goes to the Corps of Engineers, who would actually 
obligate those funds and put it under contract.
    Mr. Khanna. And when does it go to the Corps of Army 
Engineers [sic]?
    Mr. Norquist. At any point. I am not sure exactly at what 
time it mechanically transfers. They need it before they go to 
obligation, so they have to go through their contracting 
process.
    I can get you for the record what the status of the funds 
are, in terms of when it transitioned inside the Department.
    Mr. Khanna. So--and then they can start using it----
    Mr. Norquist. Correct.
    Mr. Khanna.----to build the wall.
    And has the Department of Defense, in your experience, 
since 1983, ever reprogrammed funds without prior consultation 
of Congress?
    Mr. Norquist. I am not familiar with us doing a 
reprogramming without a prior--the reprogrammings that rise to 
the threshold of requiring prior approval, the larger ones, I 
am not familiar with us ever doing it without that.
    Mr. Khanna. It seemed--I am on the Armed Services 
Committee, and it seems Secretary Shanahan was almost pained 
that the--of the implications of making this decision. Do you 
agree with the Secretary, that there are some negative 
consequences to reprogramming without Congress's consent?
    Mr. Norquist. There is tremendous benefit to the 
relationship we have had with the Committee of moving money 
through those prior approvals, and the ability to protect and 
maintain that is important, as--I think the Secretary is 
expressing his concern over that, and I share his concerns.
    I have just been passed, by the way, that the money did 
transfer to the Corps of Engineers yesterday. So just for the 
record, that is what has happened.
    Mr. Khanna. So at this point they can use it to do 
whatever----
    Mr. Norquist. They can put it under contract if the 
contracts are ready.
    Mr. Khanna. And how long will it take for the contracts? Or 
is that something----
    Mr. Norquist. I am not sure.
    Mr. Khanna. So you share the Secretary's concerns. Would 
you have made a recommendation to the President--and I 
understand you ultimately have to follow the President's 
orders, but would you have made a recommendation that this was 
not wise to reprogram before coming to Congress, and that it 
would have been better served coming to Congress?
    Mr. Norquist. So I think I will keep my advice that I 
shared with the White House between us, but I wanted to make 
sure people understood the unusual nature of this action, and 
the potential consequences.
    Mr. Khanna. I appreciate that. Is there anything that you 
can share publicly about what you may have advised or written 
or--did you have any memo documenting potential disagreement?
    Mr. Norquist. I don't know if I did. I think I generally 
keep--I try and make sure I give very straightforward advice to 
those I am dealing with, and then they can make their 
leadership decision when they understand the pros and cons.
    Mr. Khanna. Is there another way the President could have 
gone about getting these funds, short of the reprogramming, and 
short of the fact that Congress hasn't allocated them, that you 
think would have been better in terms of keeping the 
Department's relationship with Congress?
    Mr. Norquist. There are, potentially. I don't have ones off 
the top of my head at this point.
    Mr. Khanna. The other quick question--I wanted to follow up 
on Representative Panetta's questioning, that--this overseas 
contingency fund.
    My understanding is this $100 billion increase is similar 
to when President Obama ordered the surge in Afghanistan, and 
when President Bush ordered a surge in Iraq. And it is a large 
amount of money. Why do you think we need that kind of increase 
today when President Trump is talking about bringing troops 
home and ending endless wars?
    Mr. Norquist. So what we did in the budget to make it 
easier with the staff that we worked in [sic] is we were asked 
to present the budget in this format. So what we did is we 
split the OCO into two pieces.
    The first one you think of as traditional OCO, it includes 
both the direct war costs and the enduring costs. And those 
match very directly with a very similar amount of request last 
year, just a slightly--bit smaller.
    The remainder of the request we put in the budget and 
presented it differently. This is what you think of as OCO for 
base. This is not the traditional use of it, and we labeled it 
as such to be able to have very straightforward and transparent 
conversations with Congress about what was in each account.
    Mr. Khanna. So we are running out of time, but maybe we can 
explore this further.
    Mr. Norquist. Absolutely.
    Chairman Yarmuth. The gentleman's time has expired. I now 
recognize the gentleman from Michigan, Mr. Kildee, for five 
minutes.
    Mr. Kildee. Thank you, Mr. Chairman, for holding this 
hearing and for recognizing me. And I want to thank you--thank 
our witness for being here today.
    I think looking critically but thoughtfully at this budget, 
at the budget we use to defend this country, is one of our--
this Congress's most important roles. So first I want to talk a 
little bit about a specific issue around military housing in 
the Department of Defense, environmental issues, specifically 
PFAS.
    We have recently seen that there is a near crisis in 
military housing. Our service members and their families are 
sometimes living in some standard--in some often unsafe living 
conditions.
    After it was some time back reported that children in 
military housing were unknowingly being exposed to lead paint, 
I asked for--we got a briefing on this, and the Army leadership 
briefed me saying that this was fundamentally--and this is 
their term--a perception problem. However, just a few months 
after that, the Secretary of the Army called some of the 
housing problems ``unconscionable'' after the severity of the 
issue was further revealed.
    And this particular instance demonstrates why I am a bit of 
a skeptic when the Department asserts it is taking these issues 
very seriously, particularly when I am dealing with issues in 
my own district around PFAS.
    People in my community are dealing with the effects of 
PFAS, the health impacts of that chemical. And it is directly 
from military uses and fire-fighting foams. Linked to cancer, 
thyroid issues, lots of health issues which we are going to 
continue to learn more about, all coming from PFAS leaching 
from military bases into drinking water in communities.
    So I am particularly concerned that money that could be 
potentially spent on, literally, ensuring the safety of service 
members and their families and people who live near those 
installations are potentially going to fund other priorities. 
The President, for example, determined to use significant 
priorities--or funding to build a wall in Mexico, while leaving 
these military families unprotected right here at home.
    The commander of NORTHCOM command said publicly that there 
is no military threat on the southern border, so spending money 
for a wall, potentially at the expense of health of our service 
members, just doesn't seem like the right priority.
    So please know that lead in military housing and this 
growing problem with PFAS will be issues that this Congress is 
going to continue to watch very closely to ensure an 
appropriate response from this Administration, and specifically 
an appropriate response from the Department of Defense.
    So, having said that, let me pursue another approach, and 
this follows on Mr. Khanna's question somewhat.
    The DoD has asked for $165 billion in OCO funding, which is 
essentially war funding. Understanding that about $98 billion 
of this is to get around the budget caps, which is a totally 
separate issue we could address, the DoD is asking for $67 
billion in war funding, including for Afghanistan and Iraq.
    So soon this country will send the first person not even 
born on 9/11 to serve in Afghanistan and, soon after, in Iraq. 
Before spending more money and, potentially, lives on this 
endeavor, it is important to identify what we, as a country, 
and us, as a military, are trying to achieve.
    So specifically, what strategic objective do we need to 
achieve that would allow for the reduction or end of this war-
funding? Basically, as we continue to fund these wars abroad, 
we need to know what winning looks like. And, if not winning, 
what is the acceptable end state our troops are trying to 
achieve?
    Mr. Norquist. So let me use--I appreciate the question. So 
what you have in Afghanistan is two things happening. One is 
our continued interest in a counter-terrorism role to ensure 
that it is never a base from which another attack is launched 
to the United States like 9/11. Part of that is what is going 
on with Ambassador Khalilzad, who is meeting with the Taliban 
and working with the government to be able to try and reduce 
and reach a peace agreement between those. That reduces the 
disruption in Afghanistan, and provides the type of stability 
that is necessary going forward.
    We fully support those discussions, we are very supportive 
of what they are trying to accomplish. Success there makes a 
significant difference to what the requirements are in the 
United States. We will continue to work with the Afghan 
Government to make sure they are trained and equipped to 
provide stability in that region, in lieu of U.S. forces being 
required to do so. But that is the long-term goal, which is 
peace and stability in the region and the counter-terrorism 
mission for the United States, to make sure that it is not a 
base for an attack on the U.S.
    Mr. Kildee. Well, I appreciate that. I think this has been 
an awful long time with really unclear delineated outcomes for 
us to continue to spend this sort of money.
    If I could just return to my first point, though, I would 
really beg that the Administration take a close look at the 
priorities.
    If we see a president who is willing to declare an 
emergency for something that the Congress itself already 
deliberated and disagreed with him on, and spend billions of 
dollars if he has his way, but leaves at risk military families 
and people who live around military bases subjected to dealing 
with either lead in their drinking water or, in the case of 
PFAS, the Defense Department caused the contamination and seems 
completely unwilling to address this problem anywhere near the 
scale that we have a responsibility to address, I would ask 
very serious consideration be given to whether those priorities 
are a real reflection of what it takes to protect Americans.
    Chairman Yarmuth. The gentleman's time has expired. I now 
yield myself 10 minutes. And you are about at the end of your 
two-day ordeal. We appreciate your testimony and your responses 
and, of course, your service.
    You said in your statement that our budget is related to 
our National Defense Strategy. And I am curious about the 
defense strategy, because I think a lot of people will look at 
what we spend on defense, and then, what has been well 
recognized what the next seven or eight countries spend on 
defense, and we spend considerably more than anyone else in the 
world. Presumably, they are faced with similar threats. They--
some of them have comparable populations, some of these other 
countries. Some of them have popular--or, I mean, comparable 
geography.
    So I am curious as to what makes the big difference, in 
terms of--whether it is strategy or other factors that require 
us to spend so much more than any other--even a power in the 
world.
    Mr. Norquist. So I think the first thing you have to look 
at--and we will use China as an example--is there has been a 
significant increase in what they are spending. And then you 
have to adjust it for purchasing power parity, which is they 
simply don't pay their military anything similar to what we do. 
We have a volunteer force. I think that is the right way to go. 
I think the quality of our force is better for it. But they 
don't have to make those types of payments, they don't make the 
investment in the housing, the medical care, the treatment of 
their soldiers that we do.
    Likewise, their cost of assembling items in the military is 
significantly less because of the way both they do their 
accounting--there are some challenges over there with how they 
present their budget--as well as with the way they do their 
internal costs. So I think, when we look at purchasing power 
parity with the Chinese, there is a significant difference.
    The second is that we intend to fight everything, if we 
can, as an away game. And so our intent is not to have to fight 
immediately on our shores, but to be able to protect allies 
abroad and keep the fight away from the United States. That 
requires sealift, airlift, it requires tankers, it requires a 
lot of capability. But the benefit to the United States of 
deterring conflicts in Europe and Asia, rather than bringing 
them here, has its own significant benefit to our security.
    Chairman Yarmuth. I appreciate that response. I also had a 
question as to how we know exactly what all these other 
countries are spending, because I am sure that they don't have 
FOIA laws that would allow us to get that information.
    But on the question of national strategy, do you have--does 
the Department have kind of an evaluation of cost benefit 
analysis? Or is the idea that we have to--regardless of the 
cost and effort, we have to defend against every conceivable 
threat that exists in the world?
    Mr. Norquist. You can't defend against every conceivable 
threat. And so one of the things we pay very close attention 
to--and we have offices in the Department of Defense who do 
careful analysis of this--is what are the things that the other 
countries do that are cost-imposing on us, that our ability to 
respond in a like manner is unreasonably expensive for us?
    And what are the ways that we can operate that puts the 
cost on them, so that we can deter for less than they would 
have to spend to be aggressive? That is an absolutely essential 
part of our analysis.
    When we look at shifting from certain types of weapons 
systems to others, it is, in part, driven by that calculation 
to play to our strengths, to play to things that either we can 
do, they can't, or that we can do at a lower cost.
    Some cases, you have to spend the money because the threat 
is so serious. But in others you try and maneuver to present a 
different challenge and a different face to the opponent that 
drives up their costs, compared to ours.
    Chairman Yarmuth. Okay. The President has on numerous 
occasions over the last two years criticized and certainly 
questioned the intelligence communities in this country. And I 
was wondering what role the intelligence--our intelligence 
agencies play in the development of the Defense Department and 
National Defense Strategy.
    Mr. Norquist. It is absolutely essential. It is actually 
the starting point. I mean one of the first things you do is 
you--before you begin a budget process--is what does the world 
look like. Not just the threats; the demographics, the 
technology, all of that comes from, overwhelmingly, from the 
intelligence community. And you use that to then decide, okay, 
so what do we need to be doing? What technologies are they 
researching? Where are they going to be in 10 years? What are 
their intentions? And that is the driving factor behind the 
strategy and the budgets that you build.
    Chairman Yarmuth. And I would ask you do the leaders at the 
Department have confidence in our national intelligence system, 
in our agencies?
    Mr. Norquist. We take their information very seriously, and 
we have confidence in the quality of the data we are receiving.
    Chairman Yarmuth. Thank you for that.
    So I have got--I am going to let you go, but I have one 
question that I am really curious about. I have this--I talk 
about it all the time, that, you know, we have a Congress that, 
at its optimum efficiency, moves at 10 miles an hour. And we 
are probably nowhere near optimum. But we are operating in a 
world that is moving at 100 miles an hour, and there are--the 
world is changing so quickly in so many ways that it--I don't 
know how we can conceivably make reasonable policy 
considerations.
    I have thought that we often should stock the staffs here 
with futurists who could tell us what is going to happen five 
years from now, 10 years from now. Does the Pentagon have 
futurists?
    Mr. Norquist. We actually--we do, in effect. In fact, I 
would just like to note one of the great minds in that area, 
Andy Marshall, just passed away yesterday, I believe in his 
90s. He led a group called the Office of Net Assessment, who 
does a significant amount of very long-drawing thinking--long-
range thinking. I would encourage anyone interested in this 
field to read the types of works that he has produced, and his 
organization has produced.
    But there are some very smart and brilliant minds looking 
into this, and we greatly appreciate their work.
    Chairman Yarmuth. Very good. Well, I am glad to know that. 
That is reassuring. I hope every agency of government has one. 
And again, I think Congress needs more of them.
    With that, I am going to yield back the balance of my time 
and thank you once again for appearing before the Committee.
    Please be advised members can submit written questions to 
be answered later in writing. Those questions and your answers 
will be made part of the formal hearing record. Any members who 
wish to submit questions for the record may do so within seven 
days.
    Without objection, this hearing is adjourned.
    Mr. Norquist. Thank you, Mr. Chair.
    [Whereupon, at 12:14 p.m., the Committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
